<html>
<title> - DEMANDING ACCOUNTABILITY: EVALUATING THE 2015 ``TRAFFICKING IN PERSONS REPORT''</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]





DEMANDING ACCOUNTABILITY: EVALUATING THE 2015 ``TRAFFICKING IN PERSONS 
                                REPORT''

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,
                        GLOBAL HUMAN RIGHTS, AND
                      INTERNATIONAL ORGANIZATIONS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            NOVEMBER 4, 2015

                               __________

                           Serial No. 114-186

                               __________

        Printed for the use of the Committee on Foreign Affairs


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

97-461PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
DANIEL DONOVAN, New York

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

    Subcommittee on Africa, Global Health, Global Human Rights, and 
                      International Organizations

               CHRISTOPHER H. SMITH, New Jersey, Chairman
MARK MEADOWS, North Carolina         KAREN BASS, California
CURT CLAWSON, Florida                DAVID CICILLINE, Rhode Island
SCOTT DesJARLAIS, Tennessee          AMI BERA, California
DANIEL DONOVAN, New York

























                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Kari Johnstone, Ph.D., Principal Deputy Director, Office to 
  Monitor and Combat Trafficking in Persons, U.S. Department of 
  State..........................................................    11
Mr. James Carouso, Acting Deputy Assistant Secretary, Bureau of 
  East Asian and Pacific Affairs, U.S. Department of State.......    12
Mr. Alex Lee, Deputy Assistant Secretary, Bureau of Western 
  Hemisphere Affairs, U.S. Department of State...................    14
The Honorable Mark P. Lagon, President, Freedom House (former 
  Ambassador-at-Large for Trafficking in Persons, U.S. Department 
  of State)......................................................    40

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Kari Johnstone, Ph.D., Mr. James Carouso, and Mr. Alex Lee: Joint 
  prepared statement.............................................    15
The Honorable Mark P. Lagon: Prepared statement..................    43

                                APPENDIX

Hearing notice...................................................    56
Hearing minutes..................................................    57
Written responses from Kari Johnstone, Ph.D., to questions 
  submitted for the record by the Honorable Christopher H. Smith, 
  a Representative in Congress from the State of New Jersey, and 
  chairman, Subcommittee on Africa, Global Health, Global Human 
  Rights, and International Organizations........................    58
The Honorable Christopher H. Smith: Material submitted for the 
  record.........................................................    63
 
                  DEMANDING ACCOUNTABILITY: EVALUATING
                   THE 2015 ``TRAFFICKING IN PERSONS
                                REPORT''

                              ----------                              


                      WEDNESDAY, NOVEMBER 4, 2015

                       House of Representatives,

                 Subcommittee on Africa, Global Health,

         Global Human Rights, and International Organizations,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 1:03 p.m., in 
room 2172 Rayburn House Office Building, Hon. Christopher H. 
Smith (chairman of the subcommittee) presiding.
    Mr. Smith. The subcommittee will come to order. And good 
afternoon to everyone.
    We have come a long way since the September 14, 1999 
hearing in this room that I chaired on human trafficking, one 
of a series that continues to this day. At that particular 
hearing, then Assistant Secretary of State for the Bureau of 
Democracy, Human Rights, and Labor Harold Koh called human 
trafficking a ``global plague'' and said that while the Clinton 
administration supported the objective of my bill to combat 
human trafficking, he testified that the ``existing legislative 
framework was sufficient and that new legislation should not 
focus on developing new institutions or establishing onerous 
new requirements.''
    No TIP office, no TIP Report, no TIP sanctions, he said. 
Beefed up reporting in the annual country reports of human 
rights practices would suffice. Assistant Secretary Koh 
testified that the administration strongly objected to singling 
out and sanctioning nations with poor records and government 
complicity in trafficking, but did agree on the need for alien 
asylum protection and enhanced criminal penalties for 
traffickers that was also contained in my legislation.
    That said, I pushed ahead in a bipartisan fashion and 
crafted a comprehensive piece of legislation, landmark 
legislation, known as the Trafficking Victims Protection Act of 
2000 which just celebrated its 15th anniversary of when it was 
signed into law on October 28th.
    The power of the Trafficking in Persons Report, a mainstay 
of the legislation, rests on its credibility. And the 
credibility of the report rests on its accuracy. We must get 
the report right--no fudging, no favors to nations based on 
other agendas--or we risk losing the most effective tool we 
have to help the more than 20 million victims of trafficking 
enslaved around the world.
    Some countries, as you know, as the distinguished people at 
our witness table know, openly credit the TIP Report for their 
increased and effective anti-trafficking response. Over the 
last 14 years, now into the 15th, more than 100 countries have 
enacted anti-trafficking laws, and many countries have taken 
other steps required to significantly raise their tier 
rankings. Tier 1 is for those who fully meet minimum standards; 
Tier 2 is for those who are making significant efforts to meet 
minimum standards and; Tier 3 is for those who are not making 
significant efforts to meet minimum standards and, indeed, may 
be subject to sanctions.
    And for those between Tier 2 and 3, Congress in 2003 
created a Tier 2 Watch List for those who have undertaken 
significant anti-trafficking steps, often late in the 
evaluation year. And just for the record, I wrote that law too. 
Unfortunately, this ranking has been misused to allow countries 
to escape accountability, a loophole we thought we had closed 
with the Wilberforce Act. And that bill was sponsored by Howard 
Berman.
    We are holding this hearing today to focus due to well-
founded concern that some of the rankings in the most recent 
report are inaccurate and undermine the credibility of the 
report. Grade inflation for certain favored countries 
undermines accuracy and accountability and, I would 
respectfully submit, demoralizes countries that actually made 
significant progress last year.
    The State Department heard from many House Members, 161 to 
be exact, when it was leaked that Malaysia was upgraded this 
year from Tier 3 to the Tier 2 Watch List. The report justified 
the upgrade because Malaysia introduced, but did not pass, an 
amendment to their trafficking law and allowed a limited number 
of their trafficking victims to work outside of detention while 
keeping the rest of the victims in detention.
    These incomplete actions pale in comparison to the size of 
Malaysia's trafficking problem. Malaysia was the subject of an 
incisive Reuters investigative report in 2014. And without 
objection, I'd like to make that report a part of the record.
    It found that human traffickers were keeping hundreds of 
Rohingya refugees from Burma captive in houses in northern 
Malaysia, beating them, depriving them of food, and demanding a 
ransom from their families.
    At least 2 million vulnerable migrants work in the informal 
economy in Malaysia. NGOs on the ground tell us that the 
traffickers operate openly and with impunity, and that those 
who get in their way are killed. Only three traffickers were 
convicted in Malaysia last year, three in a country of more 
than 30 million people.
    I note for the record and parenthetically, as we went 
through the minimum standards over the last decade-and-a-half, 
we were always trying to calibrate those minimum standards 
because some countries like to game the system. In the very 
first piece of legislation we talked about the prosecutions and 
arrests and then found lots of prosecutions, but very few 
convictions. Then we started looking at how long and whether or 
not that individual or individuals served any time in jail, 
incarcerated.
    Again, in Malaysia only three traffickers were convicted 
last year.
    If that ratio were not bad enough, it also marks the third 
year of decline for convictions in Malaysia. Three convictions 
is one-third the number of convictions in Malaysia that they 
had in 2013 when Malaysia was Tier 3, and one-seventh of the 
convictions they had in 2012.
    Trafficking in Malaysia is getting worse and the 
government's enforcement of the law was nearly non-existent, 
and yet Malaysia was upgraded. So what happened? Was Malaysia's 
upgrade in any way related to that nation's eligibility to join 
the Trans-Pacific Partnership?
    This spring, Congress approved the Trade Priorities Act of 
2015, excluding Tier 3 countries from expedited consideration 
by the Congress, for the simple reason that Congress does not 
want to increase trade with countries that engage in persistent 
trafficking, including labor trafficking. Malaysia was 
disqualified until their upgrade.
    More than bad optics, more than fighting the will of 
Congress, such circumventing of accountability is disastrous 
for labor trafficking victims and victims of all kinds in 
Malaysia. Instead of demanding change before Malaysia became a 
major trading partner, the administration weakened our 
standards to give Malaysia a pass. In other words, we looked 
the other way to empower a slave economy.
    The administration also upgraded Cuba this year to the Tier 
2 Watch List on very flimsy justifications, namely that Cuba 
began sharing information with the U.S. on trafficking and that 
it convicted 13 traffickers 2 years ago, which is outside of 
the reporting period. But what has changed in Cuba for 
trafficking victims in the last year? Cuba legally permits the 
pimping of 16-year-old girls, it is the top destination in the 
Western Hemisphere for child sex tourism, and does not 
criminalize labor trafficking at all.
    And I want to say again parenthetically, I read the TIP 
Report for all these countries. The Cuba report is excellent 
but it doesn't comport with the ranking. You got it right on 
the report, not right on the ranking.
    On the labor trafficking side, Cuba does not criminalize 
labor trafficking. Indeed, Cuban healthcare personnel, who are 
sent abroad by the Castro regime to generate income for the 
government, report being forced to work in medical missions, 
having their passports withheld, and their families threatened.
    Again, as the author of the TVPA, I have to say 
unequivocally that the spirit and the letter of the law make 
clear that trafficking rankings should not be used in the hopes 
of bringing about better bilateral relations with countries 
such as Cuba. Rather, better relations with Cuba should be 
preconditioned on real protection for Cuba's exploited and 
abused children and women, and recognition of labor trafficking 
which, again, they don't recognize it.
    The bar also seems to be lowered in the case of Uzbekistan 
which was upgraded to the Tier 2 Watch List despite the fact 
that Uzbekistan's Government openly and unapologetically forces 
its population into forced labor every year during the cotton 
harvest, something that Ambassador Lagon previously testified 
to at a hearing here, having similar parallels to slavery in 
this country harvesting cotton before emancipation took place 
in the United States.
    In recent years the government has shifted away from 
pulling young children out of school and allowed the ILO to 
monitor conditions. But instead of children, they conscripted 
adults, continuing this systematic exploitation of its 
population.
    China's premature upgrade to Tier 2 Watch List in 2014, and 
its continued presence there in the 2015 report, also raises 
very serious questions. How can a country that systematically 
trafficks its own people be anything but Tier 3?
    After 1 year on the Tier 3 list in 2013, China passed a law 
to allegedly closed its 320 re-education through labor 
detention centers which forced prisoners and other detainees to 
perform manual labor and padded the pockets of the government. 
The State Department upgraded China because of that reform in 
2014. But now we know from the report--and I again would add 
parenthetically, I chair the Congressional-Executive Commission 
on China and we just put out our comprehensive report on China. 
They just simply have changed how they do business, not the 
fact that the laogai system continues and is a terrible blight 
on the Government of China.
    The report itself says the government only closed several 
of the 320 forced labor sites and converted other reform 
through labor facilities into state-sponsored drug detention or 
custody and education centers. Again, tjere was a great deal of 
hype about this; there is very little when it came to actually 
changing the system. In other words, China continues to force 
detained citizens to perform manual labor and yet it got the 
tier upgrade it was given for allegedly ending this practice.
    I would note and remind my colleague that I have chaired 55 
hearings on human rights in China, sitting right where you sit. 
Years ago it was six members, including a Tibetan Palden 
Gyatso, who talked about the so-called reform through labor 
camps. He held up a cattle prod and said, ``They put it here in 
our groin area, and that's how they get us when we are 
reluctant to perform the mission.'' Twelve to fourteen hours a 
day, or more, they are forced to be a part of work, so-called 
reform through labor.
    That hasn't changed. It has morphed into a different but a 
very similar situation. And, again, that was the pretext for 
the upgrade.
    Additionally, China's coercive of population control 
policy, in combination with the cultural preference for boys, 
has resulted in tens of millions of women and girls missing 
from the population, making China a regional magnet for sex and 
bride trafficking as men who reach marrying age, simply cannot 
find a wife. Just ask the Burmese, Cambodian, Vietnamese, 
Laotian, and North Korean women imported to meet Chinese 
demand.
    And let me say and note here as well, I wrote an op-ed, it 
was in the Washington Times yesterday, Nicholas Eberstadt did 
an excellent one that was contained in The Wall Street Journal, 
and others have spoken out on the so-called relaxation of the 
one-child policy to a two-child policy has not changed one iota 
the coercive aspects of that population control program in 
China with forced abortion and forced sterilization as the 
mainstays and these terrible fees that they impose, draconian 
fines, as a means of implementation.
    So the continuance of missing girls will continue in China, 
and that will lead to more sex trafficking.
    We have had, at this subcommittee, a number of women who 
have been compelled to perform sex work, in other words sex 
trafficking, from other nations. An estimated 90 percent of 
North Korean women seeking asylum in China have been 
trafficked. We have had them sit here and tell their stories 
with very few lucky ones. And of course China breaks its word 
to the Refugee Convention, and rather than providing them some 
kind of durable remedy or protection, sends them right back to 
North Korea at the end of their exploitation, where then they 
are either executed or sent to that gulag system.
    Consider this: China convicted 35 traffickers last year in 
a country of 1.3 billion people. Three five. Not 3,500, not 
35,000, 35.
    Thailand by contrast, a Tier 3 country of 67 million 
people, had 151 convictions in 2014. Nothing, and I say again, 
nothing in China's deplorable record in 2014 warrants anything 
but a Tier 3 ranking. Thailand by contrast is Tier 3. China, 
with such a small number, a piddling number of convictions and 
government complicity up and down the system, is no longer a 
Tier 3 country.
    I wrote the TVPA to allow flexibility and discernment in 
rewarding a country for making progress over their record from 
the year before, and for significant, not modest or superficial 
changes, efforts that go to prosecution, prevention, and 
protection.
    Having a 3-day conference or making something around the 
edges isn't what constitutes significant. Tier rankings are a 
tool to aid real change, not a rubber stamp for simply holding 
a meeting or being a major trading partner. The rankings in 
this 2015 report seem to be a real opportunity lost for several 
countries, not just for the countries we gave a pass to, but 
other countries where good faith efforts were made but were not 
sufficiently acknowledged.
    No country will take U.S. trafficking rankings seriously 
when there seems to be a wink and a nod agreement to look the 
other way when it suits U.S. business or other interests. 
Tellingly, Reuters reports that there was a lot of infighting 
at the State Department between the trafficking experts at the 
TIP office, who I have the highest regard for, and the bureaus. 
This year the two sides split, according to Reuters, on 17 
countries, and J/TIP lost almost all of those conflicts.
    I look forward to our distinguished witnesses. But I would 
like to yield to my friend and colleague Ms. Bass for any 
opening comments.
    Ms. Bass. Thank you. Thank you, Mr. Chair. And, as usual, I 
want to thank you for your leadership on this issue and your 
creation of the TIP Report to begin with.
    I want to say that I share your concerns over Malaysia and 
Malaysia's upgrading and say that there might be some of our 
colleagues that come and attend this session so that they can 
express their concerns over that.
    I don't though, however, share your concerns about Cuba. 
And, in fact, I have been impressed with the way Cuba has 
responded to trafficking, especially sex trafficking. And I 
remember years ago when it was so obvious and open and 
flourishing. And what I saw took place is an absolute decline 
in this and the Cuban Government providing a lot of education.
    What was happening in the early years was that girls and 
women from the countryside were coming to the city because 
there wasn't any employment. And so to discourage that they 
provided a lot of education. And they actually created a soap 
opera on television that was shown widely throughout the 
country to educate people in the countryside and ask them not 
to come to the city and get involved with this.
    So I do think that improvements have been made there and 
that it is important for us to acknowledge it.
    In regard to doctors that go over and go to different 
countries, I have spoken with many of them. And one of the 
things that I think that we are doing that I hope we stop, 
especially with the change in policy toward Cuba, is to try to 
seduce some of the Cuban doctors that are practicing around the 
world from returning to Cuba but actually to come to the United 
States.
    And when you see doctors that are providing healthcare in 
developing countries, to me it is important that they continue 
to do that.
    I also have to say that I often cringe when comparisons are 
made with other countries to slavery that took place in the 
United States, in particular because you are talking about my 
ancestors who actually don't even know who they were. And when 
I think about our Capitol, our Nation's Capitol which was built 
with slave labor, what we did is that we rented, the U.S. 
Government rented slaves from local plantations and they built 
the U.S. Capitol. And there is an acknowledgment of this in the 
Capitol Visitor Center.
    And so I think sometimes when those comparisons are made it 
can minimize what actually took place in this country for over 
200 years.
    And then in terms of the Trafficking Report, I am always 
interested in trafficking that takes place in the United 
States, in particular with girls who are in the foster care 
system. And I am proud to say that in my County of Los Angeles 
the Sheriff's Department as well as social services got 
together. And our Sheriff's Department have now adopted a 
policy where they will not arrest girls who are caught up in 
trafficking, and that they will stop using the term ``John'' to 
refer to the child molesters, because that is actually who they 
are.
    So while we hold the world accountable, and rightfully so, 
I think it is important that we continue to hold our own 
country accountable. And I appreciate that in the TIP Report it 
does have a section on the United States. But I want to 
continue to call for our own country, and as a matter of fact 
all 50 states, to adopt a policy where they will no longer 
arrest girls.
    Thank you. With that I yield back my time.
    Mr. Smith. I yield to Mr. Meadows.
    Mr. Meadows. Thank you, Mr. Chairman. Thank you for your 
eloquent remarks as you opened up this particular hearing.
    To my right, to your left is the gentlewoman from Missouri, 
Ms. Wagner. And as the ranking member was talking about putting 
the emphasis on what we do here in the United States, it has 
not only been her calling but her passion to address that. And 
so I wanted to acknowledge not only her presence but her 
willingness to engage on this horrific crime against, for many 
practical purposes, young girls, but not just young girls, 
young boys as we well know, but not only here in the United 
States, but internationally. And so her presence here hopefully 
underscores the importance that all Members of Congress, 
whether they are on this committee or not, places on this 
particular topic.
    I am troubled by the trend that I see. And I want to be 
very specific in terms of what I am looking for today from each 
one of you. I don't doubt the work that many of you do and the 
passion at which you do it. This is some of you have been 
called to this and you see it as a personal mission and not 
just a profession. And I thank you for that.
    But I am troubled by what I see is a manipulation for 
political purposes of the TIP Report that basically has 
elevated to a level beyond many of you who are seated here at 
that particular desk. I am troubled by the reports, not only 
that the chairman has mentioned, but specifically how we seem 
to have all the way up to Secretary Kerry and those that are 
just shy of his position intervening with regards to decisions 
on who will be included and who will not be included.
    So let me be very clear. Many times when we have the 
Secretary or an Under Secretary coming in to testify and things 
have not gone well, they say that they oversee a vast agency of 
hundreds if not thousands of different reporting supervisors 
and managers, and they couldn't individually weigh in on those 
when it comes to accountability. But yet as we started to do 
the analysis with who was included and who was excluded, it 
appears that it goes to the very highest levels within the 
State Department and then weighing in on who should be on the 
report and who should not.
    That is troubling because once you get away from those who 
best understand it, the decisions are political. It is beyond 
my comprehension, and certainly I find it extremely interesting 
that Malaysia would have been removed from their status during 
a TPP negotiation process that is ongoing. And yet we somehow 
see this as being a pragmatic decision when very little on the 
ground appears to have changed.
    Either the report and our efforts to correct these terrible 
crimes are meaningful or they become a political tool. And if 
they become a political tool, then indeed we need to do away 
with the agency and the very report itself because it is 
nothing more than sending the wrong message that we don't take 
this serious.
    I am here today because I take this serious. I take it very 
serious. My daughter at 15 years of age brought this particular 
subject really up close and personal when she talked about what 
was happening in the United States and abroad. And if we are 
not going to stand up and be a voice, then who will?
    And so I am being direct. I expect direct answers as we go 
into the question and answer period, and specifically with what 
kinds of intervention has taken place that could potentially be 
perceived as political.
    And with that, Mr. Chairman, I would yield back.
    Mr. Smith. Very well. Mr. Cicilline.
    Mr. Cicilline. Thank you, Mr. Chairman. I thank the 
witnesses for being here today. And also thank you, Mr. 
Chairman, and Ranking Member Bass for calling this hearing and 
for being such leaders in the fight against human trafficking, 
and particularly both here in the United States and around the 
world.
    And thank you, Mr. Chairman, for your legislation that 
created the TIP Report in your early years upon this issue.
    The Trafficking In Persons Report which was authorized by 
Congress in 2000 is designed to be used as an important tool in 
our international diplomacy to incentivize countries to take 
important steps to combat human trafficking and sanction those 
who fall short. Since the report's inception, more than 120 
countries have enacted anti-trafficking laws and many countries 
have taken other steps required to significantly raise their 
tier rankings, citing the report as a key factor in their 
increased anti-trafficking response.
    And that is why it is my judgment that it is particularly 
alarming and really a shame that we are here today discussing 
what seems to be the obvious politicization of the report in 
the context of Malaysia.
    I do not make that statement lightly. I think that the men 
and women of the State Department are dedicated public servants 
who fight every day to promote American values abroad. But it 
is nearly impossible, looking at the facts, to conclude 
anything other than the determination to move Malaysia from 
Tier 3 to Tier 2 Watch List status is without sufficient 
justification, and ill-advised at best.
    Universally, advocates on the ground and in the anti-human 
trafficking community here in the United States have reported 
that Malaysia has made minimal progress and, in fact, has 
fallen in some key areas in their anti-trafficking campaign in 
the past year. Both The Washington Post and The New York Times 
editorial boards raised concerns about this year's report.
    Moreover, the anti-trafficking amendments that were 
apparently taken into account to improve Malaysia's score have 
still not been adopted, more than 7 months after they were used 
in part to justify the change in ranking. With TPP eligibility 
for Malaysia hinging on this determination, it certainly comes 
off as a political one.
    I hope to hear a thorough explanation today of how this 
determination was made and by whom, but I fear that the damage 
has already been done. Countries around the world, many of whom 
have made much more progress in their countries than the 
countries that we are going to be discussing today have seen 
the discussion around this year's report and decided that 
politics is more important than their actions. And that is a 
regrettable consequence.
    So I hope to hear from our witnesses how the State 
Department intends to take action to restores credibility to 
this vitally important report and to restore our credibility 
around the world on the issue of anti-trafficking efforts.
    And with that I yield back, Mr. Chairman. Thank you.
    Mr. Smith. Mr. Donovan.
    Mr. Donovan. Thank you, Mr. Chairman.
    From what I have heard from my colleagues, if any of this 
is true this is alarming. So I am going to yield the rest of my 
time so we can hear from the witnesses.
    Mr. Smith. Okay.
    Mr. Donovan. Thank you, sir.
    Mr. Smith. Thank you. Without objection, we are joined by 
Ann Wagner. And I would like to recognize my good friend.
    Ms. Wagner. Thank you very, very much, Mr. Chairman. And I 
thank our witnesses for being here today to testify, many of 
whom are good and loyal, upstanding members of the State 
Department, of which I had the pleasure of serving as a United 
States Ambassador for 4 years. I applaud your work in this 
area. I applaud the chairman's work, lifelong work in this 
area, along with Ranking Member Bass and the kind indulgence of 
the subcommittee in letting me come and speak on this very 
important issue.
    And I thank you for convening this hearing to investigate 
the potential political interference in this year's Trafficking 
In Persons Report. I applaud the committee's efforts to 
increase awareness of human trafficking, especially Chairman 
Smith's ongoing leadership and dedication to combating this 
terrible crime that affects the most vulnerable members of our 
society, both here in the United States of America and around 
the globe.
    On July 27th, the State Department published the 15th 
installment of the Trafficking In Persons Report. This 
independent annual publication ranks 188 countries on their 
efforts to combat human trafficking in accordance with 
standards outlined in the Trafficking Victims Protection Act. 
As a former United States Ambassador, I know well, very well, 
how the TIP Report serves as an important tool for pressuring 
countries to take meaningful action to address human rights 
violations.
    Frankly, my very first introduction to the world of human 
trafficking, both sex trafficking and labor trafficking, girls, 
boys, men, women, all of the above, came when I served at the 
State Department as a U.S. Ambassador and was responsible for 
the TIP Report that came out of my mission.
    And thus, when I came home from my tour of duty began to 
delve into this horrific crime against humanity and the most 
vulnerable, mostly young girls and women in the United States 
of America, and have worked hard with many on this committee 
and many throughout Congress in a bipartisan way to pass some 
of the most cutting edge legislation that we have seen in many, 
many years on human trafficking here domestically, and I am 
pleased that the President signed into law this past May.
    But it is absolutely, the TIP Report is key, key to 
addressing human rights violations.
    These recent media reports indicate that political 
appointees meddled in the compilation of this publication by 
challenging State Department human rights experts' ratings 
recommendations for 17 political strategic countries, and 
inflating the assessment of 14 of these. Over the objections, I 
am told, of the State Department's own experts, Malaysia and 
Cuba were among countries upgraded from the blacklist of worst 
offenders on human trafficking.
    Malaysia's unsubstantiated upgrade is particularly alarming 
because of its overt importance to the Trans-Pacific 
Partnership. Congress has restricted TPP negotiations with 
countries that have the worst records in combating human 
trafficking. Malaysia was one of those countries. However, on 
the eve of the July TPP negotiating round, the State Department 
took Malaysia off its human rights blacklist by upgrading its 
status from a Tier 3 to the less incriminating Tier 2 Watch 
List rating.
    If it is true that the administration politicized this 
report there are questions about why they chose to 
significantly, significantly diminish a tool that has been 
effective in fighting the scourge of human trafficking around 
the world. The United States cannot be a leader in the fight 
against human trafficking if we do not honestly assess the 
state of the problem for all countries, even our own, and most 
importantly including trading partners like Malaysia. The U.S. 
cannot allow political interest to outweigh the safety and the 
freedom of the thousands of trafficked men, women, and 
children. We have to hold governments accountable for their 
actions.
    I welcome the continuing investigations into this year's 
TIP Report, and I would urge the administration to remain 
vigilant against any attempts to circumvent the veracity of 
future TIP reports and the protections they provide.
    I thank again the chairman, the ranking member and other 
members of the subcommittee for their kind indulgence. I yield 
back, Mr. Chairman.
    Mr. Smith. Curt, do you want any opening comments?
    Mr. Clawson. Thank you for coming. I like you a lot. Yield 
back.
    Mr. Smith. Thank you.
    Let me now introduce our very distinguished panel beginning 
with Dr. Kari Johnstone who is the Principal Deputy Director of 
the Office to Monitor and Combat Trafficking in Persons. She 
began serving in this role in November 2014.
    Previously she served in the Bureau of Democracy, Human 
Rights, and Labor in the Office of International Religious 
Freedom. She also served as the Director for Russia and Central 
Asia at the National Security Staff of the White House, as an 
election officer at the U.S. Embassy in Afghanistan, and the 
Human Rights Officer at the U.S. Embassy in Uzbekistan.
    Then I would like to introduce Mr. James Carouso who is the 
Acting Deputy Assistant Secretary in the Bureau of East Asian 
and Pacific Affairs. He joined the Department of State in 1995 
following a 14-year career in international banking and 
finance.
    Most recently Mr. Carouso served as the Counselor for 
Economic Affairs at the U.S. Embassy in Indonesia. Prior to 
that he served with the State Department in a variety of 
economic and commercial roles in the Dominican Republic, South 
Africa, Australia, Thailand, and Cyprus.
    And finally we'll hear from in this panel Mr. Alex Lee, who 
serves as Deputy Assistant Secretary for South America and Cuba 
in the Bureau of Western Hemisphere Affairs. He is a career 
member of the Senior Foreign Service and he was named to his 
current position in February 2014.
    Mr. Lee has led the biannual U.S. delegation to the 
migration talks with Cuba in 2013 and 2014, and was Deputy 
Chief of Mission at the U.S. Interests Section in Cuba. Prior 
to joining the State Department Mr. Lee was a staffer in the 
U.S. House of Representatives.
    Dr. Johnstone, the floor is yours.

STATEMENT OF KARI JOHNSTONE, PH.D., PRINCIPAL DEPUTY DIRECTOR, 
   OFFICE TO MONITOR AND COMBAT TRAFFICKING IN PERSONS, U.S. 
                      DEPARTMENT OF STATE

    Ms. Johnstone. Thank you, Chairman Smith, and members of 
this subcommittee for inviting us here today to talk about the 
2015 Trafficking In Persons, or TIP, Report. It has been my 
honor to be associated with the TIP Report and to lead the work 
of the Office to Monitor and Combat Trafficking in Persons in 
recent months.
    I also want to thank Deputy Assistant Secretary Alex Lee 
and Acting Deputy Assistant Secretary Jim Carouso for 
testifying alongside me.
    Producing the annual TIP Report is a year-round, 
department-wide effort involving hundreds of staff in 
Washington and at U.S. Embassies and consulates around the 
world. The final report reflects the Department's best 
assessment of foreign government efforts to comply with the 
minimum standards to eliminate trafficking in persons as 
outlined in the Trafficking Victims Protection Act, or the 
TVPA.
    I know how important the issue of modern slavery is to 
Congress. On behalf of the entire Department I want to thank 
you for your commitment to this issue and, Mr. Chairman, for 
your authorship of this important legislation. We are thrilled 
that your colleagues in the Senate have recently confirmed our 
new Ambassador-at-Large to head the TIP office, Susan Coppedge. 
Last week Ambassador Coppedge and the TIP office recognized the 
15th anniversary of the TVPA.
    Over these last 15 years we have learned that the TVPA's 
legal framework is what makes the TIP Report such an effective 
tool in combating human trafficking across the globe. Since the 
passage of the TVPA, the TIP Report has helped to draw public 
attention to the issue of human trafficking and prompted 
foreign governments to take meaningful steps to address this 
crime. It is often referred to as the gold standard. And I have 
learned during my time leading the TIP office that it truly 
lives up to this designation.
    Not only is it one of the most effective diplomatic tools 
our Government has for encouraging a foreign government to take 
action and make progress in combating modern slavery, it also 
gives voice to the many stakeholders working on the front lines 
of the problem, whether they be government officials who want 
to see change in their country, activists who confront the 
crime wherever it occurs, or professionals providing services 
to victims around the world. And it conveys the human face of 
the world's trafficking crimes to its readers. There is much to 
be proud of in this report.
    As always, the narratives and tier rankings reflect 
government efforts to increase prosecutions, improve 
protections and enhance prevention efforts to combat modern 
slavery, not to the extent of human trafficking in any 
particular country. We saw tangible progress in many places in 
the world. Many governments adopted new anti-trafficking laws 
or improved existing laws, strengthened their law enforcement 
efforts to convict and punish traffickers, increased inter-
governmental coordination to combat human trafficking by 
establishing senior-level bodies and adopting national action 
plans, and improved victim protection measures.
    Between April 2014 and March 2015, Afghanistan, Angola, 
Barbados, the Czech Republic, Eritrea, Sierra Leone, and Sudan 
all became parties to the 2000 U.N. TIP Protocol, which we also 
refer to as the Palermo Protocol. Of the 188 countries and 
territories assessed in the 2015 TIP Report, 18 countries were 
upgraded this year. Unfortunately, we also saw efforts fall 
short in the 18 countries that were downgraded. Much work 
remains, and all of us must continue to improve our efforts to 
fight this crime.
    We will continue to use the report to elevate human 
trafficking and encourage governments to implement the actions 
recommended in the TIP Report. Secretary Kerry personally 
raises the issues with foreign leaders, as he recently did in 
both Cuba and Malaysia. Ultimately, the purpose of the report 
and our shared goal is to effect change. We continuously review 
how we can use the report ever more effectively as a lever 
year-round to motivate tangible progress around the world.
    For example, I just returned from a productive trip to 
Thailand, Malaysia, Hong Kong, and China during which I urged 
these governments to make stronger efforts to implement the 
recommendations in the 2015 TIP Report. I was pleased to see 
that every official I met with was aware of their tier 
designation in the TIP Report. I won't claim that all these 
officials fully agreed with our assessment, but the report and 
minimum standards have clearly focused attention on the 
realities of modern slavery and the tangible steps required to 
combat this crime.
    It was also clear in each country I visited last month that 
officials in our Embassies and consulates are regularly 
engaging their host governments to improve their anti-
trafficking efforts and to implement the TIP Report 
recommendations. Amidst all the important information found in 
the annual TIP Report, one message becomes clear year after 
year: Human trafficking is a challenge in nearly every corner 
of the globe, including here in the United States. Governments 
all over the world, including those on Tier 1, struggle to keep 
up with a crime that affects millions of individuals compelled 
into service for sex or labor or both. We must all continue to 
improve our efforts to fight and end this crime.
    We know our work is critical. We remain committed to 
addressing these challenges. And we look forward to helping to 
create a world free from modern slavery.
    Thank you.
    Mr. Smith. Would either of you like to add? I know it is a 
joint statement but please.

    STATEMENT OF MR. JAMES CAROUSO, ACTING DEPUTY ASSISTANT 
   SECRETARY, BUREAU OF EAST ASIAN AND PACIFIC AFFAIRS, U.S. 
                      DEPARTMENT OF STATE

    Mr. Carouso. Thank you, Chairman Smith, and members of the 
subcommittee. It is a privilege to testify with Dr. Kari 
Johnstone. This acknowledged expert on this issue has done so 
much to combat trafficking across the region, I echo her 
appreciation for inviting us here today to talk about the 2015 
Trafficking In Persons Report. And I want to again acknowledge 
the work of this subcommittee and you, too, Mr. Chairman, on 
the importance of this report for the work we do in our 
Embassies across the region.
    As Dr. Johnstone explained, producing the TIP Report is a 
year-round Department-wide effort involving all of our 
Embassies and consulates around the world. As a Foreign Service 
Officer I have experience myself when I served in Thailand I 
was in the border with China I was sent to a room full of 
garlic, a mountain of garlic, and all these young women peeling 
the garlic, speaking Chinese. Obviously they didn't belong in 
Thailand.
    The credibility that we have as an Embassy, as U.S. Embassy 
employees, and using tools like the TIP Report help us solve 
problems like that. And some of my proudest moments are to be 
able to deal with things like that.
    It truly is, the TIP Report, is one of the best diplomatic 
tools we have to ensure the governments across the region take 
seriously the efforts to combat trafficking in persons. When 
progress is insufficient, as it unfortunately is in a number of 
countries in East Asia and the Pacific, the recommendations of 
the TIP Report provide guidance, concrete guidance, to our 
Embassies and consulates overseas as they carry out their 
diplomatic duties, as the Ambassador was saying.
    EAP and the TIP office collaborate closely with foreign 
governments and international partners to combat trafficking. 
EAP and the TIP office also work very closely with federal 
partners to provide foreign assistance to combat human 
trafficking, particularly the Bureau of International Narcotics 
and Law Enforcement; Population, Refugees, and Migration; 
Bureau of Democracy, Human Rights, and Labor; USAID, and the 
Department of Labor. The TIP office currently funds 20 projects 
in 14 EAP countries.
    I would like to just highlight a few examples of this 
bilateral engagement. In the Philippines, civil society 
organizations are providing law enforcement with training and 
support to address the ongoing commercial sexual exploitation 
of children. Across the Pacific Islands we fund programs to 
enhance victim protection, strengthen anti-trafficking 
investigations and prosecutions.
    In Thailand we recently collaborated with the Department of 
Homeland Security to embed agents in the Royal Thai Police's 
Anti-Trafficking Division and we are considering ways to 
replicate that model in other countries.
    Our approach to trafficking is not limited to just 
bilateral engagements. Due in part to the focus the U.S. 
Government places on combating trafficking in the region, we 
are working with ASEAN, the Association of Southeast Asian 
Nations, as they come close to endorsing a Convention on 
Trafficking in Persons. And the State Department is planning to 
fund regional ASEAN projects to help meet the requirements of 
the convention.
    Year-round, even after the report is complete, U.S. 
officials at every level from Ambassadors down to the most 
junior officer regularly engage host governments in trafficking 
issues. From my own experience I know that these efforts are 
well-integrated into our Embassies' overall strategic plans as 
well as their daily work. And thanks largely to the 
effectiveness of the report's tier ranking system, we are able 
to urge progress. Armed with these rankings, the TIP office, 
EAP, and our posts overseas will continue to be able to 
effectively collaborate on programs and diplomatic strategies 
better combating this scourge in the future.
    Once again I truly thank you and we look forward to your 
questions.
    Mr. Smith. Thank you very much.
    Mr. Lee.

 STATEMENT OF MR. ALEX LEE, DEPUTY ASSISTANT SECRETARY, BUREAU 
    OF WESTERN HEMISPHERE AFFAIRS, U.S. DEPARTMENT OF STATE

    Mr. Lee. I have a short statement.
    Thank you, Chairman Smith and members of the subcommittee 
for the opportunity to develop and present remarks about the 
2015 Trafficking In Persons Report.
    The scourge of modern day trafficking in persons touches 
every region of the globe, including that of the Western 
Hemisphere. And the Bureau of the Western Hemisphere Affairs 
takes trafficking in persons and the challenge of addressing 
effective solutions to it very seriously. We regularly engage 
with partner governments to encourage the prosecution of 
traffickers, provide protection to victims, and to provide 
programs for prevention.
    Our Embassy personnel are on the front lines of this 
diplomatic engagement, whether at the senior level of the front 
office of our Ambassadors, whether at the working level with 
the ministries of foreign affairs, justice, or the security or 
public security ministries. And in addition, our Embassy 
personnel provide the reporting that informs much of the annual 
Trafficking In Persons Report.
    U.S. programs that promote rule of law, good governance, 
citizen security, and economic prosperity throughout the 
Western Hemisphere seek to address the underlying factors that 
allow trafficking in persons to persist. For example, the 
Department of State funds capacity building of law enforcement 
and immigration officials in the region to screen and identify 
victims of human trafficking and to investigate and prosecute 
those cases.
    We work closely with the Office to Monitor and Combat 
Trafficking in Persons and with partner governments to compile 
the most accurate information that will allow us and our 
partners to assess government efforts and work toward the most 
effective solutions.
    I look forward to answering your questions.
    [The joint statement of Ms. Johnstone, Mr. Carouso, and Mr. 
Lee follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                              ----------                              

    Mr. Smith. Thank you. Thank you very much for your 
testimony. And again thanks to all of you for being here today.
    Let me just ask you, in light of the Reuters report, in 
light of concerns that many of us have about Malaysia, China, 
some of us at least have strong concerns about Cuba and 
Uzbekistan, and even Vietnam--I mean Vietnam has complicity in 
trafficking, particularly labor trafficking--did any other 
concern, such as a trade, factor in any way or come into play 
in the administration's decision to upgrade Malaysia or Cuba or 
China?
    Again, I read the report on Cuba three times. It is 
excellent. It frames it. It gets it. It captures the 
information based on everything else I know and other sources. 
And yet it, it doesn't warrant an upgrade.
    And I am wondering in light of the rapprochement that has 
occurred between Washington and Havana, was that in any way a 
part of this, any way? Because I would think that the TIP 
Report made recommendations--and perhaps, Doctor, you might 
want to speak to that--there should be more transparency in 
this process. I know very often the default is to say we can't 
say what we recommended. But we need to know that. This is all 
about a gross human rights abuse that disproportionately now 
affects women and children. And, you know, like as I said in my 
opening, China had 35 convictions; Watch List. Thailand had 151 
convictions; Tier 3. Malaysia had three convictions and Cuba is 
down in the single digits as well.
    You know, Thailand must feel aggrieved with the 
juxtaposition of these other countries, the upgrades. And there 
appears to be other issues that come into play.
    I will note parenthetically, I was never more proud, and I 
am a very stauch supporter of Israel and South Korea, but 
during the previous administration both Israel and South Korea 
were designated as Tier 3 countries because that is where the 
evidence took the administration. And, frankly, both countries 
did robust things, did tremendous things. South Korea passed 
new laws. And certainly, I met with the Ambassador from Israel 
several times, they are reporting, their closing up of brothels 
just was extraordinary. And they got off Tier 3 the old 
fashioned way, they earned it.
    But then to look at, was there any other factor in this 
continuum of decision made by TIP, goes on to the Assistant 
Secretary, the Deputy, the DASes, right up to Secretary Kerry 
and to President Obama. And if you could--and I hope you will--
if you could provide us with who made these decisions at the 
end of the day?
    Ms. Johnstone. Thank you very much, Mr. Chairman. If I may 
begin at least to answer that question.
    This year when we prepared the 2015 TIP Report, as in 
previous years it was a truly deliberative, fact-based process 
of discussions between our experts throughout the State 
Department, both at our Embassies and consulates overseas, with 
our colleagues in regional bureaus here in Washington, and 
experts in the TIP office. That is the same process that we use 
every year. We compare and assess governments' efforts against 
that own government's efforts the previous years, against the 
minimum standards as outlined in the TVPA, specifically looking 
at those criteria and whether or not the government has indeed 
made significant efforts to fulfill those minimum standards.
    That is the process that was true for all of the countries 
this year when we made those decisions. Ultimately, the final 
tier designations are made by the Secretary of State, this year 
as they are every year, by the authority given to him in the 
TVPA. So these decisions are in fact his to make, not the TIP 
office or others in the State Department.
    Mr. Smith. But again, Doctor----
    Ms. Johnstone. The recommendations certainly----
    Mr. Smith [continuing]. You do make a recommendation as to 
what the designations should be when there is a split? I mean 
no one knows more about it than you and the daily calls that 
went out to the various Embassies. They are on the ground. They 
know.
    And I think 15 years later we are really getting it right 
because every Embassy I go to, and there are many, I always ask 
who is doing TIP there. And I am always impressed just how 
seriously they take this.
    But, again, my big question is like with Malaysia, did TPP 
play a role in that upgrade?
    Ms. Johnstone. The Secretary himself has said publicly that 
TPP did not come into it. He did not consult others in the 
administration, nor did the White House through USTR weigh in. 
I have no knowledge that that came up at any other officials' 
discussions on the tier designation for Malaysia or any other 
country.
    Mr. Smith. How about with regards to Cuba? Again the Report 
is excellent in its detail. And I mean when a country doesn't 
even acknowledge its forced labor, when it pimps out girls who 
are 16. And we know that the government runs the infrastructure 
for hotels and the like. And it is a very, very cruel 
exploitation of young girls and young boys. And I am just 
wondering who, you know, what was the recommendation of the TIP 
Office and then to the bureau? Was it to keep it at Tier 3, 
Cuba?
    Ms. Johnstone. As you yourself indicated, we don't discuss 
the internal deliberations and recommendations of the different 
parts of the State Department. There is a robust discussion. In 
the vast majority of cases we reach consensus at the expert 
level and discussions don't go further.
    There are some cases that the evidence may be pointing in 
different directions. As you know yourself, within the minimum 
standards there are four minimum standards and 12 indicia. So 
there are a lot of different factors we are looking at. In some 
cases they all point in the same direction of either progress 
or lack thereof. In some cases they are mixed, as was the case 
in Malaysia that we saw increased prosecutions and 
investigations but a decline in convictions.
    So when we do have more complicated situations like that, 
the discussions do go further up the chain and ultimately the 
Secretary makes the decision.
    Mr. Smith. But again on this increased prosecution, without 
objection the testimony of Most Reverend Eusebio Elizondo an 
Auxiliary Bishop of Seattle who led a delegation of the U.S. 
Conference of Catholic Bishops to Malaysia. They make the point 
that despite the presence of an anti-trafficking law, the 
delegation learned that the government offers little or no 
protection or rescue to victims. And on the very issue you just 
mentioned, while Malaysia's arrests increased, arrests for 
human traffickers, the conviction rate remains low due to the 
ability of the traffickers to bribe or threaten officials.
    That is exactly what we thought we corrected in previous 
iterations of the TVPA. It is not just how many arrests you 
make and then put that out as a neon light. Yes, look at all 
these arrests. What good is it if there are no convictions and 
nobody does real time or have their assets seized that they 
gleaned through such a nefarious enterprise.
    So, again, if there is a way you could tell us who made 
this decision? I mean TPP had no impact on this? Mr. Carouso, 
you might want to speak to that?
    I mean the Senate was very robust, including my senior 
Senator, in raising this issue, Bob Menendez.
    Mr. Carouso. I can tell you in every meeting I was ever in 
to discuss this, the discussions were strictly related to the 
facts of the trafficking in persons situation in the countries 
involved. And that includes reports you got in from the 
Embassy.
    Ms. Johnstone. If I may add, also you asked about the 
importance of the TVPA and the criteria outlined therein in the 
discussions. Absolutely they are central. And in the case of 
Malaysia we did look across the three P's. And as you noted, we 
have serious concerns about victim protection in Malaysia. That 
has been our number one recommendation in the last several 
years in the TIP Report, encouraging the government to 
fundamentally change how it treats trafficking victims.
    They have essentially been held in government shelters that 
essentially serve as detention facilities where the victims 
have neither freedom of movement nor the right to work. And 
that has been our top priority recommendation in the last 
several years because, as you point out, it is a very serious 
concern
    The government did make significant efforts over the course 
of the 2015 reporting period in the 2014 calendar year to 
improve that. And the amendments that were passed just after 
the reporting period ended do seek to fundamentally revise that 
system. We are cautiously optimistic that once they are 
implemented they will make meaningful progress in this area. 
But that was the number one priority.
    Mr. Smith. I have more questions but two of our members do 
have to leave.
    Ms. Johnstone. Sure.
    Mr. Smith. I would like to yield to Ms. Bass and then to 
Mr. Meadows both.
    Ms. Bass. Thank you. I really appreciate that.
    I wanted to ask you about online trafficking. And it is 
certainly a growing problem, especially in the U.S. when there 
are like large sporting events like, like the Super Bowl, for 
example. And there was this big, huge bust on sex trafficking 
and then there are sites like Backpage, Craigslist, and even 
Facebook.
    And so I wanted to know what, what efforts within the 
Federal Government are being made to curtail this? And then 
also, is this an international phenomena?
    Ms. Johnstone. We are definitely tracking that issue, both 
in the United States. Our colleagues and other parts of the 
Federal Government are increasing their efforts on that in 
terms of law enforcement efforts to try to identify traffickers 
who are using online methods to find their victims.
    We, unfortunately, are also seeing that as a growing trend 
in some other countries. The Philippines, for example, is an 
area that we have focused on. So both through our diplomatic 
efforts, but also our programming efforts, we are trying to get 
a better handle on this because there does seem to be an 
increasing problem around the world.
    Ms. Bass. Thank you.
    Mr. Smith. I would like yield to Mr. Meadows for questions 
he has.
    Mr. Meadows. Thank you, Mr. Chairman.
    So, Dr. Johnstone, your testimony today, and let me be 
clear, is that no factor other than trafficking issues, no 
trade issues, no domestic policy issues have entered in in the 
decisions to either raise or lower the status of any of these 
countries this year? Is that your testimony?
    Ms. Johnstone. In all of the discussions that we had within 
the TIP office----
    Mr. Meadows. Not discussions. I am asking about your 
testimony here today. Is that your testimony that it did not 
play a factor?
    Ms. Johnstone. None of the discussions with respect to the 
recommendations that were made by my colleagues in regional 
bureaus or the TIP office included any other factors other than 
trafficking itself.
    I cannot speak to the discussions that took place amongst 
the----
    Mr. Meadows. I am not asking about discussions, okay. You 
are giving a great answer to a question I didn't ask. I am 
talking about consideration. There is a difference between 
discussion and what is really considered in terms of the way 
that a decision is arrived at. And I am just saying that the 
evidence wouldn't support that there were not other mitigating 
factors.
    And I want to know what your testimony is here today 
because that, you are leading us that direction and I want to 
make sure that we are clear.
    Ms. Johnstone. The decisions on the tier rankings 
themselves were made by the Secretary of State. He himself has 
publicly said no other factors came into it. That is the full 
total of my knowledge.
    Mr. Meadows. I am asking for your testimony. You are here 
today. If he was here I would ask him the same question. But I 
am asking for your testimony.
    Ms. Johnstone. Any of the recommendations that were made--
--
    Mr. Meadows. Yes or no.
    Ms. Johnstone [continuing]. By my colleagues----
    Mr. Meadows. I need to know, yes or no?
    Ms. Johnstone. There were no factors other than the TVPA 
criteria to my knowledge.
    Mr. Meadows. Okay. Are you and Mr. Carouso, are you willing 
to give us your split memos or split reports and supply them to 
this committee as it relates to the decisions and how they 
came?
    Ms. Johnstone. The State Department does not share the 
internal deliberations.
    Mr. Meadows. I know they don't. I said are you willing to 
give them? Because that would help us eliminate the decision-
making process without you having to weigh in on it personally. 
And do you not think the American people have a right to know?
    Ms. Johnstone. I believe that the question of what 
information we would share and what documents we are able to 
share is being discussed currently by----
    Mr. Meadows. Do you think the American people have a right 
to know?
    Ms. Johnstone. Have a right to know about how we----
    Mr. Meadows. Arrive at these horrific crimes and whether we 
trade with them, how it would be trade, do you think the 
American people have a right to know? It is an easy question.
    Ms. Johnstone. I think it is very important to the American 
people how we address the issue. And I think that the facts 
speak for themselves in the reports themselves.
    Mr. Meadows. All right. So will you supply the split memo 
to this committee?
    Ms. Johnstone. I will have to consult with my colleagues 
back in the State Department what documentation we are able to 
provide.
    Mr. Meadows. Are you saying that you are prohibited? 
Because I don't believe you are prohibited.
    Ms. Johnstone. I am saying I don't have the authority to 
decide what documentation the State Department can provide.
    Mr. Meadows. All right. Mr. Carouso, are you willing to 
give us your split memos?
    Mr. Carouso. I agree with Dr. Johnstone, I would have to go 
back to my bosses and----
    Mr. Meadows. Well you guys, I am sure you prepared for this 
hearing today. And as you were preparing for this hearing I 
believe that you would anticipate that this particular question 
would have come up. And so when you prepared what was the 
decision was made? Were you going to give that information to 
this committee or not, Mr. Carouso?
    Mr. Carouso. I never asked, sir.
    Mr. Meadows. Okay. All right. So let me ask you this. There 
were 17 different cases. Of the 17 cases, the initial 
recommendations were only adhered to, according to my 
information, in three times, three out of 17. That is a batting 
average of .175. Normally it wouldn't put you on the Kansas 
City Royals with that kind of batting average.
    So if your recommendation was only followed and not 
overruled, that is the way that I view it, being overruled, by 
people up the line, only out of 17 times you were overruled 14 
times, would you say that that is indicative of people up the 
line making a decision that may not be based on those closest 
to the information?
    Ms. Johnstone. That would certainly not be how I would 
characterize it. I do believe that the entire State Department 
takes the issue very seriously and our obligation----
    Mr. Meadows. I am not denying that. What I am, what I am 
getting at is it appears that Secretary Kerry and the Under 
Secretary made a decision in 6 of the 17 cases. Is that 
correct?
    Ms. Johnstone. We are not discussing the internal positions 
but----
    Mr. Meadows. That is not an internal position. That is just 
saying how many times did they weigh in? Did they weigh in six 
times or not?
    Ms. Johnstone. The internal discussion process and which 
countries who weighed in on them we are considering to be the 
internal deliberation process. And to maintain the----
    Mr. Meadows. Well, I, I appreciate----
    Ms. Johnstone [continuing]. Reliability of the report----
    Mr. Meadows [continuing]. That. But you know what it 
appears is is that you're coming here, we are asking very 
specific and not difficult questions and yet you seem to want 
to avoid those. Wendy Sherman, who I have a great deal of 
respect for, admire, weighed in on 11 countries; is that 
correct?
    Ms. Johnstone. I am not able to comment on the internal 
deliberations.
    Mr. Meadows. Not able to not willing?
    Ms. Johnstone. Not able.
    Mr. Meadows. So you are saying by statute you are not 
allowed to tell this committee, who has oversight of this 
particular issue? Is that your testimony?
    Ms. Johnstone. The way that the process goes within the 
State Department, we have expert-level discussions within our 
office and----
    Mr. Meadows. Are you willing to have us review that when we 
are not in a public forum with just members of both the 
minority and the majority looking at those split memos? Are you 
willing to do that?
    Ms. Johnstone. That is certainly something that I will 
consult with my colleagues on.
    Mr. Meadows. When will you have an answer back to this 
committee?
    Ms. Johnstone. As soon as we possibly can.
    Mr. Meadows. So within 7 days?
    Ms. Johnstone. That should be possible.
    Mr. Meadows. All right. I will yield back. Thank you.
    [The information referred to follows:]
Written Response Received from Kari Johnstone, Ph.D., to Question Asked 
            During the Hearing by the Honorable Mark Meadows
    These types of documents requested are inherently deliberative in 
nature.
    In order to inform his tier ranking decisions, the Secretary draws 
upon the expertise of the entire State Department and considers 
different perspectives on the facts and criteria set forth in the 
Trafficking Victims Protection Act (TVPA). In the case of a few 
countries each year--as in 2015--senior Department officials may offer 
the Secretary their assessments of the totality of a government's 
efforts measured against the minimum standards in the TVPA, thereby 
helping inform the Secretary's decisions.
    As a matter of policy, the Department does not share internal 
documents that are part of the deliberative process. It is critical 
that Department officials are able to convey their views frankly during 
the deliberative process, which ultimately contributes to the integrity 
of the TIP Report and the strength of tier ranking decisions. If you 
would like to discuss further, we are happy to answer any remaining 
questions you may have.

    Mr. Smith. Let me just follow up and continue my 
questioning and then I will yield to Mr. Cicilline. We do have 
a break. We have five votes on the floor. Take about 20 minutes 
if we all make the last one, or the first one I should say.
    Just with regards to Vietnam, I have chaired hearings on 
Vietnam Human Rights Act that I have gotten passed four times 
in the House. I have been there. We know that labor trafficking 
is a huge problem. The first case that was prosecuted 
successfully was against Vietnamese leaders from Daiwa. And 
that was the first conviction that was gleaned from that law.
    Mark Lagon from Freedom House, also a former TIP 
Ambassador, makes an excellent point that the upgrade of 
Vietnam to Tier 2 is bewildering and claims that there is an 
utter absence of prosecutions for labor trafficking, as well as 
official complicity, which we know is a huge problem. And we 
have had hearings on just that: Vietnam's complicity with human 
trafficking.
    And I am wondering why they even got an upgrade to Tier 2?
    Also if you could answer again on the Chinese issue. As I 
said in my opening comments, the reform through labor. I am 
probably the only member, along with Frank Wolf, who has ever 
been in a laogai, Beijing Number 1. Soon after the Tiananmen 
Square massacre we saw 40 Tiananmen Square, protesters we 
weren't allowed to talk to, who had shaved heads and looked 
like concentration camp victims. The laogai has not been 
dismantled. It has morphed into something else. It is still 
utterly repressive. And, again, that was the pretext for 
upgrading China.
    China ought to be Tier 3. Whether or not you sanction them 
is all up to you. There is huge discretion there. But in terms 
of looking at the facts on the ground, whether it be sex 
trafficking or labor trafficking, China is a basket case. And 
it is in a race to the bottom with North Korea on these issues. 
And yet, superpower considerations maybe were mitigating 
factors there.
    And that is what Mr. Meadows and I and so many others are 
trying to get at. Were other issues involved, intervening 
issues, like opening an Embassy in both Havana and Washington, 
China being a superpower? This TIP Report is sacred. We have 
got to get it right and pull no punches, and say it exactly the 
way it is, assign tier rankings exactly the way they ought to 
be. And then what you do on sanctions is all up to you; the 
second shoe that needs to drop, which we seem to be late in 
hearing anyway when it comes to the sanctions part, which we 
thought would be in September.
    So if you could, on Vietnam, on China, and again answer on 
the record whether any intervening issues, not whether or not 
it was discussed, that could be plausible deniability, we never 
discussed it so we can say in front of a committee that there 
was never discussion on other issues--but if the elephant in 
the room was the TPP, well we have many members on both sides 
of the aisle, disproportionately Democrat, who feel that the 
system was gamed. I believe it was gamed on Malaysia.
    Again, if I were Thailand looking at those conviction 
numbers, China 35 convictions, Thailand 151, Malaysia 3. I mean 
that is a cruel joke. And so please if you could address that 
and as well as our distinguished DASes.
    Ms. Johnstone. Do you have a preference for which country 
we take first?
    Mr. Smith. In the order you would like to answer.
    Ms. Johnstone. One thing I just wanted to point out 
quickly, you mentioned the sanctions and waivers piece. The 
White House did in fact release that information in October. I 
was looking for the date but we can get you the exact date. 
That was indeed released already.
    And I think perhaps my colleague can talk about Vietnam. I 
am happy to talk about China.
    Mr. Carouso. Okay. I think what impressed us in Vietnam 
were the arrests of 685 suspected traffickers, and that they 
prosecuted 472 and convicted 413. Most sentences ranged from 3 
to 15 years imprisonment. More than 1,000 potential trafficking 
victims were identified and provided protection. And integrated 
support to another 668.
    U.S. participated in joint investigations and rescue 
operations in neighboring countries. In 2012 Vietnam's anti-
trafficking law expanded to specifically define and criminalize 
sex and labor trafficking with punishments from 2 to 20 years 
and 3 to 25 years imprisonment. It has also increased the 
number of officials who received anti-trafficking training.
    So all those factors weighed on the Tier 2 ranking.
    Part of the issue here is that the problems are horrific, 
as you point out. And when we are doing these rankings it is 
measuring a country against itself. Because if we try measuring 
countries against other countries then it gets really, really 
complicated, as you know, sir. So Vietnam made some progress.
    And even the miserable number of three convictions in 
Malaysia, yes, that was terrible. So now we are working with 
them to train officials on how you prosecute these cases and 
they welcome that. We are working with them on how to get the 
implementing regulations right on the amendments that you 
passed so that there can't be loopholes which mean they can't 
get the convictions later on.
    And again, getting to the bottom line, were are encouraged 
modestly by Malaysia's apparent effort to address this issue 
with seriousness. And this report and your subcommittee's 
passion about it, which we point out every chance we get, that 
this is being watched very, very carefully, that we have to 
answer to a higher authority, they know. Deputy Prime Minister 
Zahid of Malaysia was here just a couple weeks ago and 
Secretary Kerry pointed this out to him in very short, clear 
words and he promised how he would personally make sure these 
issues were addressed.
    Anyway, I just, I wanted to really emphasize that.
    And now you want to talk about China?
    Ms. Johnstone. Sure. I can take over for China.
    Mr. Carouso. Please.
    Ms. Johnstone. If you would like.
    When I was there last week I reinforced the serious concern 
that I know you share and that Deputy Secretary Blinken raised 
when he was in China as well. We are deeply concerned about the 
situation of human trafficking in China. Particularly, they 
need to take robust steps to address forced labor, including in 
state facilities. We raised that quite directly.
    We are also concerned about women and children who may be 
trafficking victims that are not screened and identified as 
trafficking victims and may in fact be arrested and ultimately 
either prosecuted or deported if they are not Chinese citizens 
for crimes that they committed as a result of being victims 
rather than treated as victims.
    We are also concerned that the government has forcibly 
repatriated North Koreans, as you mentioned. We continue to 
raise these issues both in the report and in our engagement 
with the government.
    I must say that in my conversations last week with Chinese 
officials I was somewhat pleasantly surprised by their openness 
to share information with us, the efforts that they are taking 
to address particularly sex trafficking, and their expressed 
eagerness to continue to share best practices and even engage 
in joint training. Hopefully this can be a foundation that we 
can help them build better understanding of the crime.
    One of the things that I left the country with was a sense 
that the Chinese Government's understanding of the crime of 
human trafficking is not the same as our own or as is outlined 
in the U.N. Palermo Protocol. In particular, they focus on 
issues in their laws as more expansive than our law or than 
Palermo. So we are trying to get a better understanding of 
their law enforcement data, how much of that actually is 
addressing what we would consider to be human trafficking as 
opposed to other horrible crimes that we just don't call human 
trafficking, like organ harvesting and organ trafficking, 
illegal adoption.
    We talked a lot about the issue of forced marriage and 
trafficking amongst those women. As you yourself mentioned, Mr. 
Chairman, there is plenty to be concerned about in China. We do 
indeed measure the government's efforts against its own efforts 
in previous years, which is why China remained on the Tier 2 
Watch List based on its efforts in previous years and what we 
do believe to be increasing law enforcement efforts.
    We have serious concerns that we will continue to raise 
with them. And, hopefully, we will make some progress in the 
future.
    I think my colleague also wanted to answer some of your 
questions about Cuba if we may.
    Mr. Smith. Please.
    Ms. Johnstone. And before I----
    Mr. Smith. And before we leave Asia, if I could very 
quickly.
    Ms. Johnstone. Yes.
    Mr. Smith. There is a Reuters report this morning that 
India has been preventing trafficking victims and their 
families who have been granted T visas by the U.S. from leaving 
India and starting their lives in the United States. India is a 
Tier 2 country. We don't have numbers on convictions or victims 
identified as assisted. I am not sure why or how they could be 
a Tier 2 country.
    I have, we have had hearings on India as well in this 
subcommittee raising these issues. And so that is a bit 
baffling as well. We don't give out T visas mindlessly. We do 
our due diligence. I applaud the administration for that. But 
now they are on their end showing a great reluctance, claiming 
that it is fraudulent. So and then Cuba too, if you could.
    Ms. Johnstone. If I could just mention.
    Mr. Smith. Sure.
    Ms. Johnstone. October 5th was when the Presidential 
determinations with respect to waivers and sanctions for the 
Tier 3 countries were released. October 5th.
    Mr. Smith. Thank you.
    Mr. Lee. Thank you, Chairman.
    You asked in your opening presentation whether a TIP 
upgrade was a subject of discussion in the reestablishment of 
diplomatic relations. And I can answer categorically that it 
was not.
    Mr. Smith. And again, it was not part of the decision. 
Whether or not it was discussed, it just was completely 
separate and distinct?
    Mr. Lee. It was completely separate. And but I would like 
to make the observation that our constructive engagement with 
the Cubans, which was basically done prior to the normalization 
talks in the migration talks, which I participated in, we have 
been talking about TIP sets of issues. And there was a distinct 
change on the Cuban side after they acceded to the Palermo 
Protocol, the Palermo Convention in mid-2013.
    What happened after that was kind of an accelerated 
bilateral engagement on TIP in a way that had never occurred 
before. And so in a sense, our understanding of what the Cuban 
Government was doing, whether on prosecutions, protection, or 
prevention, greatly increased as a result of these exchanges.
    So, for example, we had in November 2013, a first 
videoconference of TIP experts at a very senior level on both 
countries.
    In March 2014 we had a joint J/TIP and WHA visit to Havana 
looking at what the Cuban Government was doing on the ground in 
a way that we had never had access to.
    In February 2015 Under Secretary Sewall had a meeting with 
the main Cuban Foreign Ministry official responsible for the 
United States, again to emphasize the importance of TIP in our 
bilateral relationship.
    A month later a technical-level group of TIP, Cuban TIP 
experts came to the United States for a series of technically 
focused meetings. And----
    Mr. Smith. Mr. Lee, if you could just suspend and we will 
come right back to you as soon as we can. We are on zero, we 
are out of time for voting. So we are going to run over and 
vote. We will be back in about 20 minutes. And I apologize for 
the interruption and for the inconvenience to all of you.
    Stand in recess.
    [Recess.]
    Mr. Smith. The subcommittee will resume its sitting. And 
again I apologize for that lengthy delay.
    You were, Mr. Lee, still in the process of answering. If 
you would continue.
    Mr. Lee. Thank you, Chairman.
    I was essentially going through a litany of engagements. 
But to make the larger point that our understanding of what the 
Cuban Government does and does not do has greatly increased in 
the past couple of years and in a sense has been a beneficiary 
of the more constructive engagement between the two governments 
in those areas both governments have decided to work on in a 
cooperative manner, of which trafficking in persons is one of 
those.
    So for all of the areas that we have reported and 
identified in the TIP Report on Cuba that we need to work on, 
we have established with the Cuban Government, an ongoing 
process of sharing information that allows us to make our 
points and also understand what they are doing and what they 
are not doing. And that is basically the point I wanted to 
make.
    Thank you, sir.
    Mr. Smith. If you could, Mr. Carouso, speak to the India 
issue, if you would like. And really touch on the T visa report 
today, the Indian Government being very hostile toward that. 
But also, what do we have? I mean some of the earlier hearings 
that we had in this subcommittee were on very, very young 
Indian girls who were trafficked. I remember I was actually in 
Nigeria in between stops on a trip and I watched an 
unbelievably incisive CNN report that talked about in \1/2\ 
hour what I had heard from a number of the witnesses from India 
for years about how the police were tipped off right before a 
brothel raid where underage girls, some as young as 10, were 
quickly scooted out the building so that they could not be 
rescued because there was an informant within the police 
department.
    One of the things that our TIP minimum standards emphasizes 
is that police are part of the government. If there is 
complicity by the police, prosecutors, judges, or anyone else 
in law enforcement, that too constitutes a violation of minimum 
standards.
    So if you could speak to India, if you would, and then I 
will yield to Mr. Cicilline.
    Mr. Carouso. Actually, EAP does not cover India. So I am 
going to defer to Kari.
    Ms. Johnstone. So I will in fact speak about India.
    We do have serious concerns about the trafficking situation 
in India. We absolutely share your concern about such appalling 
stories that we, unfortunately, do hear coming out of India. 
The Government of India does not fully comply with the minimum 
standards for the elimination of trafficking, but it is making 
improvements in efforts to do so in our assessment.
    During the reporting period, the government continued to 
fund shelter and rehabilitation services for women and children 
throughout India. It trained prosecutors and judges. And upon 
order of the Supreme Court, several states launched searches to 
trace the whereabouts of thousands of lost and abandoned 
children, including, we believe, potential trafficking victims.
    The government's law enforcement progress was unclear, 
however, as you stated, as the government did not provide 
adequate disaggregated anti-trafficking data. And official 
complicity remained a serious concern that we share with you as 
well, Mr. Chairman. We continue to be troubled that victims 
were sometimes penalized through arrests for crimes committed 
as a result of being subjected to human trafficking, and that 
many anti-human trafficking units which liaise with other 
agencies and refer victims to shelters were not functioning.
    NGOs assessed that government victim care services were 
inconsistent and inadequate for the scale of India's 
trafficking problem. We, therefore, remain concerned about the 
serious human trafficking situation in India, including forced 
and bonded labor.
    On the T visa issue that you mentioned, I also would like 
to say that that is a concern that we share. We are deeply 
concerned by the reports that some Indian nationals holding 
U.S. T visa have experienced travel restrictions. As you noted, 
this is an important protection that the United States provides 
to trafficking victims, and we take that very seriously.
    The current status of the Indian policy, as even the 
Reuters story that came out today indicated, is unclear. We 
continue to ask the Indian Government both to fully repeal the 
policy and give us a better understanding of what they are 
doing. We have engaged repeatedly, both in Washington and 
within India through our mission at very high levels. 
Ambassador Susan Coppedge and I will be heading there again 
this month, and we will definitely raise the issue of the T 
visas as well as the other, these other concerns that we have 
about human trafficking.
    Mr. Cicilline. Thank you, Mr. Chairman.
    Thank you again to our witnesses for your work and for your 
testimony today. I really want to focus my questions on 
Malaysia.
    I have looked carefully at the 2014 TIP Report. And when 
you compare the 2014 and 2015 TIP Reports, the bulk of the 
recommendations that the Department makes regarding Malaysia 
are substantially the same. For example, they both report the 
need to amend Malaysia's anti-trafficking law, to provide 
protective services to all victims, to implement procedures to 
identify labor trafficking victims, to offer alternatives to 
deportation to countries where victims face oppression, to 
increase efforts to notify migrant workers of their rights, and 
to better cooperate with other governments in the region. They 
look like the same recommendations.
    And so my first question really is, if the Government of 
Malaysia had made a good faith effort to improve its anti-
trafficking efforts, why did the government fulfill so few of 
the recommendations that were laid out in the 2014 TIP Report?
    Ms. Johnstone. If I may begin by noting that the 
recommendations in the TIP Report generally are quite broad and 
long-term. And they are usually meant to bring a government 
into full compliance with the minimum standards. So they are 
not short-term or small.
    And very frequently if you look at different countries as 
well, you would find that from year to year many of the 
recommendations are repeated, even if there is tier movement, 
because there may be some, some progress in one area of the 
recommendations but not others. So that is something that you 
would see in many countries.
    In the case of Malaysia----
    Mr. Cicilline. But again, the point is that they should do 
some of those before they change positions on the rankings, not 
just----
    Ms. Johnstone. And they may, indeed, be making significant 
efforts toward fulfilling those recommendations without 
completely fulfilling the recommendations, which I think you 
could say is the case with Malaysia in 2015.
    We had said, I mentioned earlier, for several years that 
our primary top recommendation, our biggest concern was how 
victims are treated in Malaysia. And with the adoption of 
amendments to their law we do believe that, if fully 
implemented, that the new law would fundamentally change the 
victim protection system.
    Mr. Cicilline. But to be clear, those recommendations were 
not adopted at the time of the issuance of the TIP Report. In 
fact, it says specifically there were draft amendments that 
were made to existing anti-trafficking law. The cabinet 
approved the draft amendments and introduced them to 
Parliament, but Parliament had not passed the amendments at the 
end of the reporting period.
    So it seems to me the only significant difference is the 
creation of a pilot program for government workers to be out of 
detention. Is there anything in addition to that that 
distinguishes 2014 from 2015?
    Ms. Johnstone. We certainly saw much increased government 
efforts and four cabinet level meetings throughout the year in 
which the government did ramp up and outline significant new 
efforts that it was taking, including drafting this law through 
new consultations with civil society which it had not done in 
the past.
    Mr. Cicilline. Yes.
    Ms. Johnstone. That was indeed progress and one of our top 
recommendations as well.
    Mr. Cicilline. I am very concerned because when you take 
these two reports and put them side by side, while it 
identifies actions that Malaysia should take, which I think 
most countries would understand to mean you should do these 
things or some effort in a serious way to get these things 
done. And if you get some of them done you will presumably have 
some opportunity to move up in the rankings. They got none of 
them done other than this pilot program and they had a 
significant change in their status.
    So my next question is, did any staff in the Office to 
Monitor and Combat Trafficking in Persons recommend the upgrade 
from Tier 3 to Tier 2 Watch List for Malaysia?
    Ms. Johnstone. Well again, we do not discuss the internal 
deliberations and who had which position within the State 
Department. It is a fact-based deliberative process. And to 
maintain the credibility of the process itself we believe it is 
important that the expert opinions throughout the State 
Department are able to be expressed freely and candidly and 
that the credibility of the process is really important.
    Mr. Cicilline. So is it the normal course that the 
Secretary of State's recommendation, without telling what they 
are, that they mirror regularly the recommendations of your 
office? Or are departures from the recommendations of your 
office common? Does it happen once every ten countries? Does it 
happen once a year? How frequently is the Secretary of State's 
determination at odds with the determination or the 
recommendation of the Department?
    Ms. Johnstone. As I said earlier, the decision is 
ultimately the Secretary's to make. Our----
    Mr. Cicilline. No, I know that. My question is, how often 
is his decision different from the recommendation of the staff 
of your office?
    Ms. Johnstone. In the vast majority of cases the 
recommendations reach consensus at the working level between 
the TIP office and the regional bureaus and our colleagues at 
our Embassies and consulates around the world.
    Mr. Cicilline. So you say this determination is fact based. 
And obviously you can't tell us what was in the Secretary's 
head. But the facts that you rely on to make the 
recommendation, is one difference of circumstances this pilot 
program?
    Ms. Johnstone. As well as the activity of the government 
throughout the year and in consulting with civil society and 
drafting the amendments.
    Mr. Cicilline. So on April 17th, the U.S. Ambassador to 
Malaysia Joseph Yun said that Malaysia needed to show greater 
political will in prosecuting human traffickers and protecting 
their victims if the country hoped to improve its Tier 3 
ranking. Given that the 2015 TIP Report covers government 
efforts undertaken from April 1, 2014 through March 31, 2015, 
meaning that all actions referenced in the report had already 
occurred before Ambassador Yun's comments, can you explain why 
the Department disagreed with the Ambassador's assessment?
    Ms. Johnstone. Again, we are not free to discuss the 
internal deliberations and who had which position. The 
Ambassador did indeed convey accurately the concerns that the 
entire Department had, including the Secretary, about human 
trafficking in Malaysia and that the government needed to do 
more. Ultimately the Tier 2 Watch List assessment makes it very 
clear that the government still has a lot of work to do. It is 
far from a good grade. It is equivalent of a D minus. It 
indicates in fact that they still have a lot of work to do. And 
we do have serious concerns that are to be addressed.
    Mr. Cicilline. But, Dr. Johnstone, the fact is the 
Ambassador who is there on the ground makes this determination, 
says very clearly that they have much more work to do before 
they can improve its ranking. Your either recommendation or the 
Secretary of State's determination is contrary to that. And I 
am wondering if you had a basis for why it is that either you 
concluded as a recommendation or the Secretary concluded that 
the Ambassador was wrong? Because you can't both be right. It 
cannot be that Ambassador Yun is right and Secretary Kerry is 
right.
    Ms. Johnstone. I wouldn't characterize his quote as saying 
that Ambassador Yun made a recommendation on the tier ranking 
within that quote as well.
    Mr. Cicilline. No, but he did say that before they could 
move to Tier 3 they had to demonstrate greater political will 
in prosecuting human trafficking and protecting their victims 
if they hoped to improve from a Tier 3 ranking.
    Ms. Johnstone. And we did see increased prosecutions and 
investigations. Of course we are very concerned that we didn't 
see progress and, in fact, saw a decline in the convictions.
    Mr. Cicilline. In addition, Ambassador Yun noted that there 
had been a failure to engage in sufficient prosecutions of 
perpetrators of trafficking. And although the TIP Report notes 
an increase in prosecutions, it also notes that there were only 
three trafficking convictions. That is a decline of two-thirds 
from last year's report.
    And it also notes that ``The government did not report any 
investigations, prosecutions or convictions of government 
officials complicit in trafficking, despite evidence that some 
government officials facilitated migrant smuggling.''
    Do you believe, again, that those facts represent a good 
faith effort to prosecute traffickers?
    Ms. Johnstone. We very much share the concern that you just 
voiced about the low number of convictions. And we have said 
that both publicly and privately.
    When I was just in Malaysia last month we made that point 
very clearly and indicated that we anticipate significant 
progress as we are making the decisions for the 2016 Report.
    Mr. Cicilline. But with all due respect, that is comforting 
to hear. But in the face of an upgrade it sort of raises the 
question of why it is that a country would receive an upgrade 
with very little. In fact, other than that pilot program. I 
don't see evidence.
    And I just want to ask you finally, Tenaganita, which is a 
Malaysian NGO that helps trafficking victims, claims that 
police have known about the north Malaysian trafficking trail 
and the existence of human trafficking camps for many, many 
years. And, in fact, the organization says that migrants have 
been reporting about the camps since 2007 and that no police 
action was taken when reports were made about the camps.
    Can you tell me, Dr. Johnstone, whether any officials at 
Tenaganita were interviewed during the compilation of the TIP 
Report? And does the State Department agree or disagree with 
those allegations, and if so, why?
    Ms. Johnstone. We do maintain a relationship both through 
our Embassy and our office here with Tenaganita. I met with 
them myself as well in Malaysia last month. Their information 
definitely is something that we take into account when we are 
compiling the report.
    We noted in the report and subsequently in our meetings 
with government officials the serious concern that we take 
about the allegations of trafficking in those areas and the 
camps and mass graves that were found. We understand that there 
is an ongoing investigation that has produced a report that is 
now with the Attorney General. We stressed the importance of 
accountability for everyone who is responsible for any human 
trafficking in those places, including government officials.
    Mr. Cicilline. So you don't disagree with the allegations 
that were made by that NGO?
    Ms. Johnstone. It is definitely a serious, serious issue 
that we have raised with the government, yes.
    Mr. Cicilline. So let me just ask a final question. You 
said that this is a fact-based deliberative process. Can you 
tell me specifically what facts you relied upon to raise 
Malaysia's standing in the TIP Report?
    Ms. Johnstone. The facts that are outlined in the report 
itself, the ones that we just discussed, including the increase 
of prosecutions and investigations, noting that it is a mixed 
picture, that declining convictions are still a cause of 
concern. The government efforts that were made to reform the 
victim protection system during the reporting period, which was 
our top recommendation for the last several years.
    Mr. Cicilline. So no investigation or prosecutions of 
government officials; correct?
    Ms. Johnstone. There have been investigations of government 
officials. We don't have the prosecutions or convictions.
    Mr. Cicilline. No prosecution of government officials 
despite evidence of complicity of government officials. A 
decline in overall prosecutions by two-thirds. No enactment of 
any anti-trafficking laws, but some expectation they will, and 
the pilot program. Those are the facts.
    Have I missed any important ones?
    Ms. Johnstone. I believe that you maybe misspoke about the 
prosecutions. The prosecution investigations did increase. The 
convictions decreased.
    Mr. Cicilline. Convictions.
    Ms. Johnstone. So the law enforcement picture was actually 
a mixed one. There were increases in both prosecutions and 
investigations.
    Mr. Cicilline. But a significant decline, and I think it 
was three convictions.
    Ms. Johnstone. Three from nine, so.
    Mr. Cicilline. But nine wasn't----
    Ms. Johnstone. It is woefully inadequate. We completely 
agree with you on that.
    Mr. Cicilline. Before I yield back, Mr. Chairman, this 
raises very serious concerns for me. I consider this report to 
be sacred and a very powerful international diplomatic tool. 
And I think the context in which this decision was made about 
Malaysia and that woeful lack of evidence to support it, and 
the context of the trade agreement, is something which will do 
permanent damage to this process. And I am disappointed, 
frankly, that nothing in this hearing has disabused me of that 
conclusion.
    For all the men and women who put so much work into this 
and for the mission it is designed to support, this is a very 
disappointing occurrence.
    And with that I will yield back, Mr. Chairman.
    Mr. Smith. Thank you very much, Mr. Cicilline. I will 
without objection go in a moment to Brad Sherman.
    Just so I am absolutely clear, no ambiguity whatsoever, 
because like Mr. Cicilline, I have read everything I could 
possibly get my hands on regarding Malaysia and I just want to 
have it established beyond any reasonable doubt that no other 
factor like trade, when it comes to Malaysia, opening an 
Embassy and new relationship with Cuba, or superpower relations 
or geopolitical considerations when it comes to China was 
involved, it was all exclusively on human trafficking, nothing 
but trafficking that decisions for each of the designations was 
made? Is that true? Is that your testimony?
    Ms. Johnstone. As I said earlier, the decisions about the 
tier designations are made by the Secretary of State. I was not 
part of the final discussions in the decision-making that he 
made. To my knowledge, certainly at the level of the people 
that you have here today, all of our colleagues in the regional 
bureaus and our Embassies and posts around the world and within 
the TIP office, all of our discussions about the factors and 
criteria were specifically looking at the TVPA criteria and the 
minimum standards there and trafficking.
    Mr. Smith. And did you disagree with the Secretary on any 
of these designations?
    Ms. Johnstone. Again, on internal deliberation process we 
don't discuss that publicly, who took which position when, and 
so that we can protect the credibility of the process. There 
are robust discussions, as there are on any policy issues. 
People have different perspectives on things. Ultimately the 
Secretary has to take into account views, perspectives, and the 
expertise of others.
    And if I may, I would also like to address that I think 
there is a misperception of some of our regional bureau 
colleagues and our Embassies and missions, and perhaps others 
in the State Department, who also bring expertise. It is not 
only the TIP office that are experts on the trafficking 
situation and the situation in their countries. But the 
discussions that we have with them inform both the tier 
designations, but even more importantly the report.
    It could not be as factual and as accurate and as objective 
as it is without the expertise and knowledge----
    Mr. Smith. Again, as I said earlier, I thought your 
reporting on Cuba was excellent, as well as some of the other 
countries that where there is a dispute but the designation 
didn't match, in my opinion, the findings. And again, just to 
put an exclamation point behind it, Malaysia had three 
convictions. China had 35 and yet they are not a Tier 3 country 
as they ought to be. And Thailand had 151 convictions. Again, 
it is not the only minimum standard but it is a very, very 
important one. 151 convictions in Thailand and they remain Tier 
3.
    If I was in the Thai Embassy I would say, What gives here? 
That is very, very discouraging. I think they ought to be Tier 
3, but the others ought to be Tier 3 as well.
    Mark Lagon makes a number of important observations. One of 
them is about Uzbekistan. He notes that the report notes that 
child labor mobilization continues in some districts. And he 
points out that the government-compelled forced labor of adults 
remained endemic in the 2014 cotton harvest. And asks the 
$64,000 question: how can state-run trafficking earn anything 
but a Tier 3 ranking?
    What alleged U.S. strategic interests could motivate even a 
purely cynical upgrade?
    Ms. Johnstone. So on Uzbekistan, this is a country near and 
dear to my heart. As you mentioned in the beginning, I served 
as human rights officer there. And while I was there actually I 
was asked by the Embassy to focus on trafficking in persons as 
that was an issue that was of growing concern to the Department 
and the administration, even then in 2003 when I served there.
    The issues of forced labor, particularly child labor as 
well as adult labor, are of great concern to the Department. We 
have over the years in various roles that I have been in 
personally also engaged on this with the Uzbekistan Government 
in close collaboration with our NGO partners as well, who 
provide vital information in very difficult circumstances. It 
is definitely an issue that we remain very concerned about.
    And, again, I would point out that Uzbekistan was upgraded 
only to Tier 2 Watch List; that does indicate they are not 
meeting the minimum standards. They have a long way to go to 
improve their efforts on combating human trafficking. However, 
we do believe and did assess that in 2014 they did make 
significant efforts to dramatically reduce the use of forced 
child labor.
    We share your concerns about adult forced labor, both in 
the cotton harvest and other sectors.
    Mr. Smith. And without objection, and I mentioned this 
earlier I believe, but if not I am doing it now, very incisive 
articles by Reuters reporters Jason Szep and Matt Spetalnick 
will be made a part of the record.
    And also a series of reports of commercial fishing, slavery 
in Papua New Guinea and Malaysia by Robin McDowell and Martha 
Mendoza from the Associated Press. Without objection I would 
like to make those a part of the record as well.
    Without objection too, I yield to my good friend and 
colleague for any comments he might have or questions.
    Mr. Sherman. Thank you, Mr. Chairman.
    Dr. Johnstone, you have an outstanding reputation. If you 
would actually tell us something, I would believe it. If you 
are just going to tell us that the decision was made by 
Secretary Kerry, you are not qualified to psychoanalyze him. If 
he made the decision, we ought to have him here and ask him. 
Because we asked you what your opinion is, and you won't tell 
us.
    But let me go at this a different way. I tend to believe 
what Reuters reports. Pretty accurate service. More accurate 
than most. They report that Malaysia, Cuba, and China all got 
better ratings than your office wanted to give them. Can you 
give me any reason to disbelieve Reuters?
    Ms. Johnstone. Well, I would like to take this opportunity 
to reiterate that human trafficking is an issue that not only 
the TIP office cares about, but our colleagues throughout----
    Mr. Sherman. I know.
    Ms. Johnstone [continuing]. The State Department.
    Mr. Sherman. I know. Let us put, it is quite possible your 
office could make a mistake. It is quite possible you want to 
give some country a Tier 1, and due to factors and arguments 
made by others in the State Department they get a Tier 2. It is 
possible you give them a Tier 2----
    Ms. Johnstone. I think that is what happened.
    Mr. Sherman [continuing]. And some, and for other reasons 
outside your office they are given a Tier 3. And all of a 
sudden our trade negotiations blow up. That is possible. Didn't 
happen in this lifetime but it is possible.
    But I am asking about your office. And I, I have got a 
report here from Reuters that says your office wanted to give a 
lower rating to Malaysia, Cuba, and China than they ultimately 
got. Can you give me a reason to disbelieve Reuters?
    Ms. Johnstone. I would reiterate that, again, the 
narratives themselves are accurate and objective and the 
product of----
    Mr. Sherman. Okay. You know, you could just say no, you are 
not going to give me a reason to disbelieve Reuters. Because 
telling me that you do a great job and that the other offices 
of the State Department do a great job is not answering, it is 
just telling me what, of course, the State Department believes, 
which is every office is doing a great job.
    Can you give me a reason to disbelieve Reuters' report 
about what your office recommended?
    Ms. Johnstone. I believe that the process through which we 
came to the both the tier determinations themselves as well as 
the reports was very much improved by the deliberative process 
and the robust discussions and debates within the Department. 
Of course people will have different perspectives. That is 
natural for any----
    Mr. Sherman. Okay. So that is not a reason to disbelieve 
Reuters. That is just a reason to say maybe Reuters was right, 
and your office recommended a lower. And maybe, and but maybe 
the upgrade was justified. But you are not telling me in your 
answer that there wasn't an upgrade from the position of your 
office. You are just telling me that there are other brilliant 
people at the State Department and they may have a good point.
    Is that the point you are making? Or are you--I will 
stipulate, other folks in the State Department are brilliant. 
They have input. They may have good reason. And it could very 
well be that the upgrade is called for, an upgrade beyond what 
your department or office would recommend. But I am just asking 
about your office. Can you give me any reason to disbelieve the 
sentence I quoted from Reuters?
    Ms. Johnstone. Again I----
    Mr. Sherman. Okay, okay. We will go on. We will go on.
    Do you personally believe that Thailand deserves a worse 
grading than Malaysia? Your personal belief. Or do you simply 
choose not to give your personal belief?
    Ms. Johnstone. I am here representing the State Department, 
so I----
    Mr. Sherman. Could you give us your personal belief?
    Ms. Johnstone. The Department's views on that, Thailand's 
rating----
    Mr. Sherman. I didn't ask for the Department's views. If 
you refuse to give me your personal views, just say you refuse, 
and I will go on, on to the next question.
    Ms. Johnstone. If I could comment, I think that implicit in 
your question is maybe a misperception as well that we, I think 
the Reuters article also cast this as a winning and losing, and 
that the TIP office lost more often this year. And I don't 
think that is how we----
    Mr. Sherman. That is you are answering a question I--this 
is great, you won't answer the questions I do ask and you are 
answering the questions I don't ask. I realize that your office 
has got to fight with, argue with or at least discuss things 
with other bureaus and offices around the State Department. I 
am not asking what is the State Department's view. I got that 
in writing. I am asking what your view is and what your 
department's view is and you won't tell us.
    And the fact that Secretary Kerry would send you here 
without instructing you or authorizing you to tell us what 
really happened gives me all the information I need. I have got 
a Reuters report that Secretary Kerry and the State Department 
is unwilling to deny.
    Now I am not a good enough lawyer to get you to admit it. 
Okay, you know, you don't have to answer a question. But 
Reuters reports that your office wanted to give a lower grade, 
lower tier than these three countries ultimately got. You are 
not saying that is not the case. You are saying that the State 
Department is a brilliant organization with lots of brilliant 
people. Wouldn't want you to say anything else.
    But if the State Department can't deny this Reuters report, 
then I think we know who controls the ultimate decisions. And 
that is those who want this trade deal. And I think this report 
is an important part of our human rights efforts. I don't think 
it is totally discredited. I think that it can be relied upon 
except when there are major diplomatic or economic reasons to 
go another way. And for 80, 90 percent of the countries there 
is no other reason, there is no strong other reason to go 
another way.
    But can you mention any respected human rights organization 
that says Malaysia is entitled to be treated, given a higher 
grade than Thailand? You know them all. You work with them all. 
We have got another one of them coming for the second panel. 
But you know that is just one. He can only invite one. You 
probably, if I asked you, could identify 40 organizations, some 
very well known, some very well respected, some less so. Can 
you name anybody who doesn't get a paycheck from the State 
Department, who is involved in human rights who says that 
Malaysia deserves to be in a higher tier than Thailand?
    Ms. Johnstone. There are indeed a variety of opinions on 
Malaysia, which we did take into----
    Mr. Sherman. You know them all. Can you name one?
    Ms. Johnstone. All I can tell you is that we have consulted 
with NGOs. We certainly take their views and information. They 
are very important----
    Mr. Sherman. And every NGO I am aware of, and you know a 
lot more than I do, every NGO I am aware of says that Malaysia 
is not entitled to be in a higher tier than Thailand. And so I 
go to you, the expert, and I say, Hey, there may be some 
organizations I haven't talked to or even heard of. And I ask 
you to name just one that thinks, you know, even if the 
community was 39 to 1 against the position this report takes, 
at least there would be one. And you know the top 40. Is there 
one that agrees with the report's decision to put Thailand in a 
lower category than Malaysia?
    Ms. Johnstone. As I said, there are a variety of opinions 
on the human trafficking situation in Malaysia, as there are on 
Thailand. There are serious problems in both countries. The 
Tier 2 Watch List ranking indicates very clearly that Malaysia 
still has a long way to go and they are still serious----
    Mr. Sherman. That is a nice answer but you didn't name one. 
You didn't name one because there isn't one. If you knew one 
you would tell me, wouldn't you?
    Ms. Johnstone. At the end of the day the tier ranking is 
the decision that the Secretary of State makes.
    Mr. Sherman. And that is why it is the Secretary of State 
who ought to have the whatevers to come before Congress and 
defend this decision. Because it puts you in a terrible 
position. The Secretary made these decisions. Only he can 
indicate why he made them.
    You don't know why he made them. I know why. You don't call 
me as a witness, but if I was called as a witness I would say 
he made them because he wants TPP to go forward and is willing 
to throw the Trafficking In Persons Report out the window. But 
I am not testifying to that because I am sitting up here. You 
haven't asked me to sit down there.
    Look, you work very hard. For those of us who think that 
your work is very important this is a difficult situation. I 
respect your personal integrity. You have been put in a very 
difficult position. You have done as good a job as anyone could 
possibly due in justifying one of the worst decisions made by 
the Department this year. And you didn't make it.
    And I will yield back.
    Mr. Smith. Thank you very much, Mr. Sherman. And any time 
you want to testify, you are more than welcome.
    Thank you again.
    Mr. Sherman. I fear some of my colleagues would be as tough 
on me as I am on so many witnesses. They have seen it. I don't 
have anything good, I don't have enough, enough in the karma 
bank to put myself through that.
    Thank you.
    Mr. Smith. Thank you.
    I do want to thank our distinguished witnesses for your 
testimony. As you can see, there is a great deal of bipartisan 
concern here, particularly these countries in question. And I 
would like, without objection, to put a letter that was sent to 
Secretary Kerry from the Cotton Campaign which lays out their 
very specific concerns about the ranking of Uzbekistan in this 
year's TIP Report.
    Thank you again for your testimony. And we will look 
forward to working with you going forward.
    Ms. Johnstone. Thank you. Likewise, we look forward to 
working with you. And thank you for your commitment to this 
issue.
    Mr. Smith. Thank you, Dr. Johnstone.
    I would like to now welcome our second panel which is 
Ambassador Mark Lagon, who is our third Ambassador-at-Large for 
Human Trafficking and the Director of the Office to Monitor and 
Combat Trafficking in Persons at the U.S. Department of State.
    Ambassador Lagon's record of involvement in human rights is 
long and diverse, spanning from Deputy Assistant Secretary in 
the Bureau of International Organization Affairs, responsible 
for human rights, humanitarian issues and U.N. reform, to 
academia where he was the chair for Global Politics and 
Security at Georgetown University's Master of Science in 
Foreign Service program, and Adjunct Senior Fellow for Human 
Rights at the Council on Foreign Relations. He was also 
Executive Director and CEO of the anti-human trafficking non-
profit Polaris. He currently serves as the President of Freedom 
House.
    Ambassador Lagon, the floor is yours.

 STATEMENT OF THE HONORABLE MARK P. LAGON, PRESIDENT, FREEDOM 
 HOUSE (FORMER AMBASSADOR-AT-LARGE FOR TRAFFICKING IN PERSONS, 
                   U.S. DEPARTMENT OF STATE)

    Ambassador Lagon. Mr. Chairman, I am very pleased that you 
and the members of the subcommittee have invited me to testify 
on the TIP Report, as I have had occasion to do in the past. I 
would like to look at some of the key issues in the report.
    Of course, we are here to focus on specific countries, but 
it is worth remembering that while getting less attention, the 
report each year highlights themes as well, with the text that 
precedes the country narratives. And this year's report 
highlights some very interesting and important things: Global 
supply chains and, in particular, offering cues to the private 
sector to fight the problem of human trafficking.
    The report highlights harmful cultural norms and, hence, 
doesn't succumb to cultural relativism. Although I will note 
that the report would have done well to note a cultural 
tolerance for wide-scale sex buying in Latin America, Europe, 
Southeast Asia, Japan, as a driver of sex trafficking.
    And I commend the report for highlighting alternatives to 
testimony drawn from traumatized trafficking survivors as the 
means of evidence to hold tormentors to account because all too 
often relying on testimony of the victims solely propels law 
enforcement in countries around the world to leverage the 
properly unconditional protection services to elicit 
cooperation.
    Most important, I want to highlight in the global findings 
in the report, some percentages. I have pulled out my 
calculator, as I do every year, and to look at a chart on page 
48 of the report. We see a 23.1 percent drop in convictions 
worldwide. And that was from an already modest 5,700 
convictions the previous year.
    Prosecutions for labor, as opposed to sex trafficking, 
dropped from an already low 12.7 percent to 4.2 percent.
    And the convictions went from a low 8.1 percent the 
previous year to only 4.9 percent of convictions for human 
trafficking being for labor. So there is, in essence, global 
impunity for labor trafficking.
    With respect to country situations, many of which you have 
already raised, and I am happy that you even cited some things 
already in my testimony, China in the view of Freedom House is 
the largest governance problem in the world, both in terms of 
its internal treatment of human rights and as a pernicious 
model. Freedom House, of course, ranks China as not free in its 
own reports.
    Both the intrusive actions and its sins of omission are 
important in the human trafficking area. Intrusive actions of 
the state fuel trafficking, including a decades-long population 
policies that created a shortage of females, both as spouses 
and sexual partners. And I really want to highlight the report 
this year which says, ``The government converted some reform 
through labor facilities into different types of detention 
centers that continued to employ forced labor.''
    What the Chinese State neglects to do also matters in terms 
of human trafficking. And very importantly, the report calls 
for China to provide legal alternatives to foreign victims' 
removal to countries where they would face hardship or 
retribution. Read: North Korea. Heinous punishment to people 
who would be returned to North Korea, which causes a human 
trafficking problem in China.
    There is a terrible arbitrary rule by law pattern, as 
opposed to rule of law pattern in China. And that is manifest 
in the failure to adopt legislation on all forms of human 
trafficking.
    Malaysia; much of the focus of your discussion today, and a 
major controversy. Well, Freedom House ranks Malaysia as partly 
free. And I will say for my own part, I have endorsed the 
Trans-Pacific Partnership because generally speaking I think 
open rules and norms put the right pressure on illiberal 
regimes. But the upgrade seems quite clearly to coincide with 
the desires of the Department of State to make Malaysia 
eligible for the TPP, and not the merits.
    For instance, corruption is rampant. It is under-emphasized 
in the report. What the report does highlight seems 
inconsistent with an upgrade, especially merely four 
convictions for labor trafficking or passport retention. And 
screening mechanisms to identify and assist trafficking victims 
are truly thin.
    By comparison, the State Department sustained a Tier 3 
ranking for Thailand because of things like victim protection 
remaining insufficient in its massive sex industry, in fishing 
and seafood, and in Thai citizens migrating to work elsewhere.
    I will repeat, as you noted, I believe that the upgrade of 
Vietnam to Tier 2 is bewildering, especially with the utter 
absence of prosecutions for labor trafficking and significant 
official complicity.
    Uzbekistan, being upgraded to the Tier 2 Watch List is 
striking. The report notes that child labor mobilization 
continues in some districts of the country and ``Government-
compelled forced labor of adults remained endemic in the 2014 
cotton harvest.'' This is one of the most heinous human rights 
abusers in the world, even among those countries that Freedom 
House rates as not free.
    As far as Cuba's upgrade to the Tier 2 Watch List, well, 
Freedom House ranks Cuba as clearly not free. The grounds for 
an upgrade are really questionable. The report itself says the 
penal code does not criminalize all forms of human trafficking, 
much less are those problems a matter of enforcement. And the 
Cuban regime did not even claim efforts to prevent forced labor 
or any trafficking-specific shelters.
    So with cases like Cuba and Malaysia sparking observers to 
suggest the report is politicized, what are we to make of this? 
To say that no considerations besides the pure merits of human 
trafficking come into play in the Department is a bit like the 
claim of being shocked, shocked to find gambling going on at 
Rick's joint in Casablanca. It shouldn't surprise us.
    But what should be done to protect, to maximize the 
integrity of the TIP Report rankings? Some steps we could take 
would make the malady that you have been looking at in this 
hearing worse. A few years ago a Senator on the Senate Foreign 
Relations Committee, no longer there, concerned that Singapore 
and Malaysia were getting rather low rankings considering U.S. 
economic and strategic interests, proposed legislation to 
markedly increase the role of the regional bureaus. That was a 
lousy idea, in short.
    In the early life of the TIP office, former Deputy 
Secretary of State Richard Armitage, who no one could call a 
human rights idealist, came to the decision that the pen for 
the draft of the report and the proposed rankings should lie 
with the Office to Monitor and Combat Trafficking in Persons. 
That needs to be protected.
    The most productive solution is for Congress to insist in 
its oversight role, and the Senate in focusing on appointments, 
that the Ambassador's position is filled and it is filled with 
someone with strong experience, vision and bureaucratic chops, 
because there is bureaucratic infighting, as your hearing has 
focused on. Delays nominating and confirming an envoy lead to 
more disputed rankings, ending up rejecting the substantive 
expertise and recommendation of the TIP office.
    And I am really troubled how long it took to replace 
Ambassador Luis CdeBaca. A fellow human rights advocate in the 
area of women's rights, who I won't name out of respect for 
her, with deep experience in both civil society partnerships 
and multi-lateral institutions, was rejected as a finalist as I 
understand it because she was apparently too concerned about 
the commoditization of females for sex trafficking. I have said 
here before you when you have been kind enough to invite me to 
testify, we need a strong advocate for fighting both labor and 
sex trafficking. It is crucial.
    How can we best protect the strength and integrity of the 
report? Congress should insist that the leader of the office be 
someone who themselves reflects strength and integrity. There 
is going to be a deliberative process in the Department; we 
know it. But it will be much more likely to produce credible 
rankings that maximize the United States' diplomatic leverage 
to get countries to pass better laws and, more importantly, to 
implement them, if there is a strong leader of the office. Then 
there will be fewer calls like Malaysia compared to Thailand.
    So thank you for inviting me, as ever, to testify. This is 
an issue in which dignity or enslavement lie in the balance.
    [The prepared statement of Ambassador Lagon follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                              ----------                              

    Mr. Smith. Ambassador Lagon, thank you so much for your 
testimony, for your life-long commitment to human rights.
    And when you served as Ambassador you were absolutely 
candid both on the record as well as off. And I think that made 
an enormous difference. I remember it was you who finally, 
despite the China hands who didn't want, I'm sure, you to do 
it, pointed out the nexus between the coercive population 
control program of the PRC and the consequence, particularly of 
sex trafficking, because of the missing daughters in the 
People's Republic of China as a result of sex-selection 
abortion. And you made that very clear.
    Your comments on Uzbekistan, and I did ask that question 
based on your testimony, and I thank you for it. I would agree 
with you that when we originally did this law the absolute 
intent was trafficking and only trafficking goes into the book. 
We want an honest assessment of friend and foe alike, allies 
around the world. No games, no brinkmanship.
    And again, as I have cited many times, the fact that Israel 
and South Korea during the previous administration's watch were 
singled out, there was shock and dismay frankly among many 
quarters, but it actually led to an amelioration of the issue, 
victims were protected, and prevention strategies put into 
place. And now South Korea has very, very strong laws as does 
the State of Israel.
    We should never pull our punches. And you have made that 
clear. And I want to thank you because during your tenure you 
were always available to this subcommittee and to other Members 
of Congress, House and Senate, and you were always candid. And 
that is beyond refreshing.
    I will also say, any suggestions you have about 
strengthening the TIP office would be appreciated from you 
personally and from Freedom House.
    The one of the things that you point out in your written 
testimony is that the last trafficking reauthorization may have 
inadvertently increased the role of the regional bureaus. I 
believe that as well, reading the language. It was not my bill. 
It was an amendment attached to the reauthorization of the 
Violence Against Women Act, which I strongly support. But I 
ended up voting against the reauthorization of my own law that 
was proffered by Senator Leahy simply because it weakened the 
TIP office vis-a-vis the regional bureaus. If they have input, 
it ought to be to say, thank you for doing your due diligence, 
and we accept it because you are the experts.
    And then the second part of the Trafficking Victims 
Protection Act, the sanctions portion, was always left to the 
TIP Office, with all kinds of collaboration, but the belief was 
that reasonable men and women would look at how we can best 
advance the ball and protect victims and mitigate trafficking 
in the first place. You make decisions. It is not based on 
empirical data: How many convictions, what is country X, Y or Z 
doing? The book, the TIP Report was always meant to be where we 
would just say it in an unvarnished way.
    And so the disappointment that I and so many others feel 
about the artificial upgrades to Malaysia, to Vietnam, to 
China, Uzbekistan where, as you have been dogged in pointing 
out, and you did in one previous appearance here, the 
comparisons to the cotton that was picked by slaves. You know, 
you put it in that context and lights went off. Yes, that is 
what many of the slaves did in the United States and they are 
doing it in Uzbekistan.
    So any particular thoughts you might have, in addition to 
what you have already said, would be helpful.
    Your testimony notes that Vietnam does not prosecute labor 
trafficking at all and that there is a high level of official 
complicity in labor trafficking. Again that raises questions 
about a favored country where there are things on the table 
other than trafficking. And they ought to be, in my opinion, a 
Tier 3 country as well.
    So perhaps you can spend some time on those questions?
    Ambassador Lagon. Much to address, and I thank you.
    Let me note three things. First of all, you played a role 
in focusing on the question of official complicity. When a 
diplomat is involved in subjecting a domestic servant to human 
trafficking conditions, that should be seriously held to 
account in the report.
    You have raised the issue of peacekeepers of nations who 
have in fact added to human suffering in places that they have 
served, from the Balkans to places in Africa, as opposed to 
relieving it. Complicit as agents of their government.
    Think especially about a case where a government policy is 
in fact a source of human trafficking, this is the case in 
Uzbekistan. Sure, it has finally agreed to let the ILO come in 
and start looking at the problem of child labor. Okay, that is 
good. But if in fact it is a policy of the government to 
continue forced labor for adults, and it is not eliminating 
entirely the phenomenon of child labor, that is a special 
category. I can't see how you could give an upgrade from Tier 3 
for that.
    And I think that is something that is worth really driving 
home. If the government itself is doing it or its officials are 
complicit, that should be reported. In fact, it is my view that 
if officials of a government are involved, such as their 
diplomats, that that should be mentioned in the report; maybe 
not the names of the officials.
    It has been long, secondly, my view that both the 
Trafficking Victims Protection Act, with due respect to you as 
its author, and the Palermo Protocol are heavily focused on the 
prosecution and law enforcement precepts. There are more things 
in the minimum standards there. I think it is very important 
that you can see progress across the so-called three P's. And 
in particular, I have been consistent in saying that the moral 
imperative lies with the protection of victims, or what I would 
call the re-empowerment of the survivors.
    I think if there is anything one does to look at revision 
of the legislation it should be to make sure that you are not 
giving an upgrade and failing to take account of an anemic 
record on victim protection. I think in some of the cases in 
question here in East Asia with Malaysia and Vietnam that is 
the case.
    The last thing I would say is that any fix in the process 
and wanting to protect the degree to which the pen is held by 
the TIP office, you shouldn't seek a zero role for the regional 
bureaus or a zero role for the Embassies. They do raise 
considerations that should be looked at. I remember people from 
the South and Central Asia Bureau who had very different views 
from me as the TIP Ambassador on many countries saying, so, can 
we say that Sri Lanka has the capacity to take steps on 
fighting human trafficking when it has been facing an internal 
conflict?
    Those sorts of questions should be raised. What is 
inappropriate is if there is a tier upgrade based on issues 
that have nothing to do with human trafficking.
    Mr. Smith. As I mentioned, is there anything that you heard 
in testimony by our three previous witnesses that you would 
like to respond to?
    Ambassador Lagon. Well, I think it is an interesting 
argument with regard to Cuba that by our having more dialog 
with Cuba we found out more. I mean this was always an issue 
with North Korea, Iran, and Cuba. We don't have diplomatic 
relations with those countries so they are not about to hand 
over the statistics that we ask of host governments through our 
Embassies.
    I think it is a more credible argument that Cuba may have 
taken some steps following ratification of the Palermo Protocol 
then to suggest, well, now we know because we are in dialog 
with them. I still kind it kind of farfetched that what remains 
one of the Marxist-Leninist governments of the world does not 
have a problem with its state enterprises or its political 
prisons of forced labor.
    With regard to Malaysia, I heard nothing in the testimony 
that would lead me to believe that the TIP office did not, as 
Reuters reported it, recommend the Tier 3 ranking. One cannot 
take the evidence raised for the upgrade and see it as a 
tangible reason for this.
    I will say I am sympathetic to the position that Dr. 
Johnstone is in. And I would caution that we can explore what 
happened, what went awry here, but ultimately if you want to 
keep pressure on other governments, maybe it isn't best for the 
specific different recommendations of the TIP office and 
regional bureaus, whoever wins out, to be known globally. In 
general, the vast majority of cases do come out where they 
ought to be and where the TIP office recommends.
    Some are howlers, as I described to the press in this 
report, as mistakes. But I think we should take care about 
revealing that there were different opinions too much, because 
after all, the bill that you helped make a law and the office 
that you helped create puts its pressure on by credible focused 
leverage on other nations.
    Mr. Smith. I agree with that. But we still have to get it 
right for that credibility to be warranted.
    Ambassador Lagon. Sure.
    Mr. Smith. And let me just ask you about India. It is a 
country that we have focused on in this subcommittee on a 
number of fronts when it comes to human rights, religious 
freedom, or the lack of it, and the issue of abducted children. 
The new Sean and David Goldman International Child Abduction 
Prevention and Return Act makes it very clear that India has a 
serious problem with parental child abduction.
    And the Tier 2 ranking for India doesn't appear to be 
deserved at all. And I would really appreciate your thoughts on 
that. India has a huge child sex trafficking problem, other 
kinds of trafficking as well, but it is huge. And I am not sure 
we get the kind of data back from the government,----
    Ambassador Lagon. Right.
    Mr. Smith [continuing]. Their government that would warrant 
such a designation.
    Ambassador Lagon. I agree with you entirely. I think that 
the Tier 2 ranking is suspect.
    You may have noticed in part of my written testimony that I 
did not deliver orally that we should take care. There are some 
very serious human rights issues or serious global issues that 
aren't precisely human trafficking. They should raise doubts 
about a country's overall human rights record. And that is true 
of India as well.
    You have been at the heart of every reauthorization of the 
Trafficking Victims Protection Act. The only place in the 
legislation where the scale of the problem is mentioned is in 
the Tier 2 Watch List. That is, that is the one place where 
there could be a justification for a nation not being on Tier 2 
but being on the Tier 2 Watch List because the scale is so 
large.
    And it is true in India, it remains the demographic 
epicenter of human trafficking in the world. And while there 
have been improvements that might merit India no longer being a 
country that anyone, that the TIP office would propose be Tier 
3 because of some, finally some actions, in the states in the 
federal system in India, the scale is so large and the 
implementation so spotty that it is really hard to suggest that 
Tier 2 is merited.
    Mr. Smith. Let me ask you one final question and then any 
concluding comments you might want to make.
    Last week I chaired a hearing of the Commission on Security 
and Cooperation in Europe on the Syrian refugees. One of our 
witnesses was the regional representative for the UNHCR, his 
name is Pitterman. He said that the trigger for this massive 
move into Europe was a 30 percent cut in World Food Programme 
funding. People are so desperate now for such basics as food 
that they finally gave flight and now they are moving in large 
numbers.
    We are talking about 7.5 million IDPs, 4 million refugees 
who are scattered everywhere. Are you convinced--and I should 
have asked this of the previous panel as well--that the 
concerns of trafficking in persons are being incorporated, 
integrated into our efforts to assist refugees, particularly in 
that part of the world?
    Ambassador Lagon. I am very glad you asked that for 
multiple reasons. One, I noticed that former Secretary of State 
Hillary Clinton and former Ambassador-at-Large CdeBaca 
emphasized that we need to look at humanitarian situations and 
refugee situations and worry about the impact on human 
trafficking. At least on a thought leader level they were, they 
were focused on that earlier in this administration.
    I don't think we are doing enough with respect to the 
refugees. It is clearly a vulnerability for human trafficking 
with the enormous desperation. Those who are seeking a better 
life when they are in hardship are ones who are going to be 
vulnerable.
    I will say two things, however. We should not, as I say in 
my written testimony, forget the heart of human trafficking 
being exploitation rather than the movement of people. I 
noticed earlier that people suddenly discovered a human 
trafficking problem with Haiti when there was natural disaster. 
There has been a human trafficking problem with Haiti with 
restaveks for a long time. And so, too, we should not discover 
a human trafficking problem when there have been some endemic 
problems.
    But I must say with my Freedom House hat on, the situation 
here is a governance problem. This is a human rights calamity 
that has been left to fester in Syria. It is amazing how the 
United States and the West has not taken action to deal with 
the cause of the problem which is the mass atrocities from 
Assad. And these predated the atrocities of ISIS, which only 
make the situation worse and, hence, create a human trafficking 
vulnerability.
    Mr. Smith. Ambassador Lagon, thank you so very much for 
your testimony. And without objection your full written 
statement will be made part of the record.
    Ambassador Lagon. Thank you very much.
    Mr. Smith. And please continue to provide counsel and 
insight to the committee, as you have done so effectively for 
many, many years.
    Ambassador Lagon. Well, as a former Capitol Hill staffer 
who was around at the time of the conference on the Trafficking 
Victims Protection Act, I consider myself an honorary Hill 
staffer. So I always will think about how the oversight and the 
further refinement of the legislation are things I could play 
my small part in helping on.
    Thank you for your leadership.
    Mr. Smith. Make that large part.
    And thank you so very much, Mr. Ambassador. The hearing is 
adjourned.
    [Whereupon, at 3:55 p.m., the subcommittee was adjourned.]

                                     

                                     

                            A P P E N D I X

                              ----------                              


                   Material Submitted for the Record
                   
                   
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                   
                   

   Material submitted for the record by the Honorable Christopher H. 
 Smith, a Representative in Congress from the State of New Jersey, and 
 chairman, Subcommittee on Africa, Global Health, Global Human Rights, 
                    and International Organizations
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________
   Material submitted for the record by the Honorable Christopher H. 
 Smith, a Representative in Congress from the State of New Jersey, and 
 chairman, Subcommittee on Africa, Global Health, Global Human Rights, 
                    and International Organizations
                    
                    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                  
                    
  
                               __________
                               
                               
   Material submitted for the record by the Honorable Christopher H. 
 Smith, a Representative in Congress from the State of New Jersey, and 
 chairman, Subcommittee on Africa, Global Health, Global Human Rights, 
                    and International Organizations
                    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                   
                    
 

                                 [all]
</pre></body></html>
